<html>
<title> - IRAN: TEHERAN'S NUCLEAR RECKLESSNESS AND THE U.S. RESPONSE</title>
<body><pre>[Senate Hearing 109-672]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-672
 
    IRAN: TEHERAN'S NUCLEAR RECKLESSNESS AND THE U.S. RESPONSE--THE 
                          EXPERTS' PERSPECTIVE

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2005

                               __________


       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

24-931 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
   Joyce A. Rechtschaffen, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia

                      Katy French, Staff Director
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1
    Senator Dayton...............................................     4
    Senator Lautenberg...........................................     4
    Senator Carper...............................................     5
    Senator Akaka................................................     7
    Senator Domenici.............................................    11
    Senator Collins..............................................    21

                               WITNESSES
                       Tuesday, November 15, 2005

Hon. R. James Woolsey, Former Director, Central Intelligence 
  Agency.........................................................     9
Hon. Alfonse D'Amato, Former U.S. Senator from the State of New 
  York...........................................................    12
Hon. Newt Gingrich, Former Speaker, U.S. House of Representatives    15
Gary S. Samore, Vice President, Program on Global Security and 
  Sustainability, John D. and Catherine T. MacArthur Foundation..    29
Ray Takeyh, Senior Fellow, Middle East Studies, Council on 
  Foreign Relations..............................................    31
Ilan Berman, Vice President for Policy, American Foreign Policy 
  Council........................................................    33
Hon. Rick Santorum, a U.S. Senator from the State of Pennsylvania    43

                     Alphabetical List of Witnesses

Berman, Ilan:
    Testimony....................................................    33
    Prepared statement...........................................    99
D'Amato, Hon. Alfonse:
    Testimony....................................................    12
    Prepared statement...........................................    53
Gingrich, Hon. Newt:
    Testimony....................................................    15
    Prepared statement with attachments..........................    57
Samore, Gary S.:
    Testimony....................................................    29
    Prepared statement...........................................    88
Santorum, Hon. Rick:
    Testimony....................................................    43
    Prepared statement...........................................    43
Takeyh, Ray:
    Testimony....................................................    31
    Prepared statement...........................................    93
Woolsey, Hon. R. James:
    Testimony....................................................     9
    Prepared statement...........................................    49

                                APPENDIX

Article submitted by Senator Carper entitled ``Iran's Strategic 
  Weapons Programmes, a net assessment,'' dated September 6, 2005   105
Questions and responses for the Record from Mr. Woolsey..........   109


    IRAN: TEHERAN'S NUCLEAR RECKLESSNESS AND THE U.S. RESPONSE--THE 
                          EXPERTS' PERSPECTIVE

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2005 

                                     U.S. Senate,  
            Subcommittee on Federal Financial Management,  
        Government Information, and International Security, 
                            of the Committee on Homeland Security  
                                          and Governmental Affairs, 
                                                    Washington, DC. 
    The Subcommittee met, pursuant to notice, at 3:05 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding. 
    Present: Senators Coburn, Domenici, Collins, Carper, Akaka, 
Dayton, and Lautenberg, 
    Also Present: Senator Santorum. 

              OPENING STATEMENT OF SENATOR COBURN 

    Senator Coburn. The hearing will come to order. We will 
attempt it. There are certain Senatorial habits that tend to 
persist even when one leaves the Senate, I believe. 
    Thank you for joining us today. This hearing will focus on 
Iran and examine the relationship between Iran's pursuit of 
nuclear weapons and its status as a state-sponsor of terrorism. 
    Some have argued that we should de-link Iran's global 
support for terror from its pursuit of nuclear weapons. They 
suggest that the two problems are different and need to be 
addressed differently. I couldn't disagree more. The facts that 
Iran is trying to build nuclear weapons and that it is a 
terrorist regime are not two different problems--they are the 
same problem. 
    Possession of nuclear capabilities by responsible 
governments who use such weapons defensively and as a deterrent 
and who have a track record of respecting life and liberty is 
one thing. But that's not what we're dealing with here. A 
nuclear weapon in the hands of the regime in Teheran could mean 
that no one on earth is safe from nuclear attack. Iran has a 
history of supporting terror against its own citizens and 
against the United States--and that is why the State Department 
lists it as a state sponsor of terrorism. Permitting a more 
destructive weapon in the hands of those motivated to murder is 
worse than reckless, it is immoral. 
    I am convinced that history will judge those who spent more 
time talking and less time acting to prevent such a disaster. 
Action is demanded when we move from talking about nuclear 
proliferation to talking about just who it is that is 
proliferating. 
    So exactly what are Iran's intentions? If they weren't 
clear before, they certainly are now. Just last month, Iran's 
President Mahmoud Ahmadinejad proclaimed to the world his 
government's desire to ``wipe Israel off the face of the map.'' 
This statement sent chills around the globe. British Prime 
Minister Tony Blair stated, ``I feel a real sense of revulsion 
at these remarks. Anyone in Europe, knowing our history, when 
we hear such statements made about Israel, it makes us feel 
very angry. It's completely wrong.'' 
    White House spokesman Scott McClellan correctly stated, 
``Iran's pronounced intention underscores the concerns we have 
about Iran's nuclear intentions.'' 
    There should be no doubt that Iran isn't just blustering 
here. Iran has a record of carrying out its threats. Iran's 
history of supporting murderous terrorist activity speaks for 
itself. That's why the United States has, for the ninth 
consecutive year in a row, listed Iran as the ``most active'' 
state sponsor of terrorism.
    That is why the State Department said in its Country Report 
on Terrorism for Iran: ``During 2004, Iran maintained a high-
profile role in encouraging anti-Israeli terrorist activity, 
both rhetorically and operationally. Supreme Leader Khamenei 
praised Palestinian terrorist operations, and Iran provided 
Lebanese Hezbollah and Palestinian terrorist groups--notably 
Hamas, the Palestinian Islamic Jihad, the al-Aqsa Martyrs 
Brigades, and the Popular Front for the Liberation of 
Palestine-General Command--with funding, safe haven, training, 
and weapons. Iran provided an unmanned aerial vehicle that 
Lebanese Hezbollah sent into Israeli airspace on November 7, 
2004.''
    None of this is new, of course, for Iran's Islamist regime. 
Who can forget the harrowing hostage drama 25 years ago that 
played out on the world stage for over a year? Or Iran's 
complicity in the terrorist murder of 200 innocent Americans at 
a U.S. Marine base in Beirut, only a few years later?
    Americans, however, have hardly been the only victims of 
Iran's Islamist regime. On the contrary, Iran's human rights 
record with its own people is well documented. The State 
Department's latest human rights report on Iran describes gross 
violation against the Iranians themselves. They include 
political killings and executions following mock trials. The 
regime outlaws dissent and the punishment is death for such 
crimes as ``attempts against the security of the state, outrage 
against high-ranking officials and insults against the memory 
of Imam Khomeini and against the Supreme Leader of the Islamic 
Republic.'' A photographer who dared to take pictures of a 
Teheran prison was killed in police custody. No one was ever 
punished for her murder.
    In light of Iran's murderous intentions around the world, 
nuclear proliferation by the regime is a serious threat. So let 
us talk about where they are in that process.
    All experts agree that Iran has been working in secret for 
some time to develop a nuclear weapon. In August 2002, an 
Iranian dissident group, the National Council for Iranian 
Reform, informed the world that Iran had secret uranium-
enrichment facilities and was building a heavy water plant. 
Conveniently, shortly thereafter, Iran issued a series of 
public claims about its entree into supposedly legitimate 
nuclear power projects. These ``projects'' were then used as a 
cover to explain why the regime was acquiring facilities needed 
to complete a nuclear fuel cycle, including a uranium-
conversion facility, uranium-enrichment facility, a fuel-
fabrication plant, and a facility to produce uranium oxide.
    Defense Intelligence Agency officials testified earlier 
this year that Iran is likely to develop nuclear weapons 
sometime early in the next decade. In August of this year, the 
Washington Post, citing U.S. intelligence sources, concurred 
that Iran's nuclear program may already be so advanced as to 
produce a nuclear weapon within 6 to 10 years. What is next?
    Today, we will hear testimony about how the United States 
can effectively address the threat of Iran's nuclear program. 
More broadly, we will also address the issue of our overall 
U.S. policy toward this rogue regime, since the two are 
necessarily linked.
    Some have argued that containment of Iran's nuclear threat 
lies within the U.N.'s International Atomic Energy Agency. I 
look forward to hearing from our witnesses about the likelihood 
of success at the IAEA process in convincing Iran to dismantle 
its nuclear weapons program. I am also eager to hear about 
other diplomatic options available to the United States that 
could deter Iran's attempt to obtain a nuclear weapon, such as 
President Bush's Proliferation Security Initiative.
    Unveiled by the President in 2003, supported initially by 
16 countries and now an estimated 60 countries, the objectives 
of the initiative is to create counter-proliferation measures 
and partnerships that work together to hamstring the efforts of 
global bad actors to trade in weapons of mass destruction and 
missile-related technology.
    In addition to trying to thwart trade in weapons and 
technology, we need to follow the money. There are a number of 
countries that have financial contracts with Iran that may be 
helping to support Iran's nuclear ambitions. For example, 
Russia has a contract to provide Iran with nuclear reactors. I 
am interested in hearing our witnesses' views on how these 
financial ties corrupt voting patterns on Iran at the IAEA and 
the U.N. Security Council.
    But our policy must be much broader than simply trying to 
shut down proliferation, both technologically and economically. 
We have to get at the root cause of the problem. That means 
investing in efforts to undermine the ideology that would 
promote the slaughter of innocent civilians by the masses. This 
ideology is not only directed at so-called enemies such as U.S. 
citizens, but at fellow Muslims, at women and children, 
students, small business owners, wedding parties--all just 
innocently trying to live their lives.
    The people of Iran do not embrace this ideology. The people 
of Iran, like all people everywhere, yearn for freedom, 
prosperity, and peace.
    It is critical that the United States and the international 
community build and strengthen democratic efforts within Iran. 
Democracies tend not to threaten other democracies. When Iran 
is free, when Iran is open, when Iran honors the dignity of 
each human person, Iran's neighbors will be able to relax. When 
Iran is safe for Iranians--Iran will be safe for the world.
    Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Mr. Chairman, I want to thank you for 
convening this very important hearing and assembling two very 
distinguished panels of witnesses.
    I just echo your concern. When I was in Israel last spring, 
I was taken by the military to one of their defense missile 
sites and was told that they have 21 seconds from the time they 
see on the radar screen a missile or something coming from Iran 
to determine the nature of it.
    The development of nuclear weapons by Iran represents one 
of the most profound threats to the continued stability and 
security of the world. I, again, commend you for holding this 
hearing.
    Senator Coburn. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Mr. Chairman, thanks for reminding us 
about the terrible mistake made by the President of Iran and 
alerting us to the fact that we have got to get on----
    Senator Coburn. Senator Lautenberg, would you turn on your 
microphone, please?
    Senator Lautenberg. I thought you were hoping I wouldn't. 
[Laughter.]
    We are friends. I thank you again, Mr. Chairman, for having 
noted the ugly remarks made by the President of Iran, so 
outrageous a statement in talking to students, by the way, a 
group of students. Not only did he say that Israel must be 
wiped off the map, he also condemned his neighbors by warning 
that anybody who recognizes Israel will burn in the fire of the 
Islamic nations' fury.
    I failed to acknowledge our distinguished guests here, my 
longtime friend with whom I had many pleasant moments, some the 
other way, too, but Senator D'Amato and I are joined at the 
river and we have a lot of common interests--the Hudson River, 
in our case. And, of course, seeing Newt Gingrich here, a 
familiar face, looking fit, and we are happy to see Mr. 
Woolsey, as well.
    These hateful comments made to 4,000 students, just hours 
before a terrorist bomber murdered five people and wounded more 
than 30 in a small Israeli town stimulated, of course, by that 
kind of outrageous statement. The terrorist murders of Islamic 
jihad are supported and trained by Iran.
    I joined Senator Gordon Smith in offering a bipartisan 
resolution condemning these remarks and the Senate 
overwhelmingly passed it, but it is going to take more than 
resolutions to stand up to the terrorist regime in Teheran.
    We need to stop American companies from being able to 
support Iran through lucrative business deals. It just doesn't 
make sense. Oil production is Iran's goldmine and American 
companies are helping the Iranian regime expand its financial 
resources by improving its oil operations. In my view, it is a 
treasonous act. It astounds me that any patriotic American 
would offer aid or assistance to this evil regime, but I am 
sorry to say that some American companies are putting profit 
ahead of our Nation's security.
    Think about it. Every day that we hear that another 
American has died in the conflict in Iraq, and here we are 
knowing very well that Iran is helping to supply and to fund 
and train these terrorists. These companies that do that 
exploit a loophole in our laws by forming subsidiaries based in 
foreign countries so they can do business with the Iranians.
    I have introduced a measure that would close this loophole. 
Unfortunately, the Senate voted against my measure on a largely 
party line vote. Instead, the Senate approved a weaker version 
that pays lip service to the problems but doesn't really shut 
down the loopholes, doesn't really stop these companies from 
doing business in Iran, with Iran.
    Mr. Chairman, the Teheran regime is using profits from its 
oil reserves to fund terrorism and develop nuclear weapons and 
getting help from American companies. It is almost 
incomprehensible, because we are standing idly by.
    Senator Santorum from Pennsylvania was going to be here 
today. I know that he has a bill that deals with Iran. But I 
have got to say to my colleague from Pennsylvania that I am 
disappointed that the bill that he was presenting does not 
close that loophole that allows U.S. companies to do business 
with Iran. The House counterpart, in contrast, sponsored by 
Congresswoman Ileana Ros-Lehtinen, does close this loophole.
    Mr. Chairman, by ignoring this serious issue, the Senate is 
sending the wrong message to American companies, saying it is 
OK to do business with Iran. When I think of the woeful news 
that comes out of Iraq on a regular basis and knowing that Iran 
supports that activity, kill Americans, maim Americans, it is 
an unacceptable condition, and I am hoping that Senators on 
this panel will change their views about the kind of 
legislation that we are going to be talking about. I thank you 
very much, Mr. Chairman.
    Senator Coburn. Thank you, Senator Lautenberg. We will have 
Senator Santorum join us later. He is in another hearing right 
now and will join us on the dais.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman, and to each of our 
witnesses, welcome. We are delighted to see all of you and 
thank you for taking the time to share your thoughts and 
insights with us on what I believe is a real important subject, 
and I know you do, too.
    As we gather here today, I understand that the 
International Atomic Energy Agency Director General El Baradei 
is poised to join Russian negotiators to push for a solution to 
Iran's nuclear brinkmanship. As a testament to his being 
selected as Nobel Peace Laureate, El Baradei is to push for a 
solution despite reports that Iran may have already rejected 
this proposal.
    If those negotiations fail, I believe another opportunity 
to back Iran away from the nuclear weapons precipice will take 
place in just over a week, when the International Atomic Energy 
Board of Governors meets in Vienna to determine if and when 
Iran will be referred to the U.N. Security Council for its 
actions.
    Sixty years ago today, on November 15, President Harry S 
Truman planted the seeds of the nonproliferation regime in a 
joint declaration right here in Washington, DC with British 
Prime Minister Clement Attlee and Canadian Prime Minister 
Mackenzie King.
    The proposal was to ensure that atomic energy could be used 
for peaceful purposes while ultimately working toward 
eliminating nuclear weapons globally. Iran makes it very clear 
today that we have yet to reach this important goal, but it is 
nonetheless imperative, maybe more imperative, that we do so.
    While it would have been helpful to have had the 
opportunity to hear today from Under Secretary of State Robert 
Joseph, who led the briefings on Iran's nuclear warheads at the 
IAEA back in July, I welcome the testimony, I think on our 
second panel, of Dr. Gary Samore, who is the architect of the 
internationally acclaimed International Institute of Strategic 
Studies publication on Iran's weapons capabilities. Hopefully, 
he can shed some light on these nuclear warhead plans that 
appeared in this weekend's New York Times and how soon Iran 
could develop a nuclear weapon and be of danger to the rest of 
us.
    In addition to understanding Iran's weapons capabilities, 
it is also very important that we begin to better understand 
Iran, why it is in pursuit of nuclear weapons, and what it 
would want and need from the international community to stop 
its pursuit permanently.
    Iran has, as we all know, a new president who is anti-U.S., 
anti-Israel, anti-west, and if left to his own devices, a great 
risk, I think, to international security. He has inexcusably 
called for the disruption of Israel, incited violence against 
western interests in his own country, and attempted to stack 
his government with those who hold the same beliefs.
    Yet, instead of totally backing the efforts of the new 
president, Iran's Supreme Leader has been running interference. 
A meeting with the Supreme Leader led the new president to 
change his rhetoric of hatred about wiping Israel off the map 
to calling for democratic elections in Palestine. And after a 
fiery U.N. speech, another body of government, Iran's 
Expediency Council, was given oversight powers over this new 
president. And the president has yet to get approval of an oil 
minister from the Iranian parliament after having submitted 
several persons for the position, despite the parliament being 
dominated by hard-liners who would be expected to be 
sympathetic to this new president of Iran.
    Yet, that new president still retains the blessings of the 
Supreme Leader, power, and support from many Iranians, 
plausibly because he campaigned as a ``man of the people who 
would promote the interests of the poor and return Iranian 
government to the principles of the Islamic revolution during 
the time of the Ayatollah Khomeini.''
    With nearly three-quarters of Iran's population under the 
age of 30, with unemployment rampant, it is easy to understand 
why the Iranian people are looking for change.
    What does all of this mean for nuclear negotiations? I am 
hoping that our esteemed witness Ray Takeyh, who has great 
insights into Iran's inner workings, can tell us what is going 
on with Iran's leadership and its impact on nuclear 
negotiations.
    But I also have a couple of questions. First, are Iranians 
supportive of the new president because of his ideology, his 
promises of government reform, or both? Second, even if the new 
president is successful in pressing for government reforms, 
could they alone save Iran's economy, or would investment from 
the west still be needed?
    Have past and current U.S. policy approaches taken both the 
economic concerns of urban Iranian middle class into account 
and those of poor Iranians, who seem to believe that ushering 
in the past in the form of this new president could serve them 
in a way that trade, privatization, and foreign investments 
could not?
    If this is their belief, there may be a mismatch between 
the incentives that the west is currently offering Iran to give 
up their nuclear aspirations and what Iranians actually want or 
feel that they need. Conversely, if Iranians truly feel it is a 
sense of national pride and security to have nuclear weapons 
capability, there may be nothing that the west can offer to be 
a deterrent.
    And if this is, indeed, true, we must be certain that our 
diplomatic ducks are in a row so that we can ensure that Iran 
is referred to the U.N. Security Council and that success is 
guaranteed once they have been sent there.
    Too much hangs in the balance for us not to explore all of 
our options. Sixty years ago, our country set forth a goal of 
removing nuclear weapons from the world, 60 years ago today. 
Many of these goals have been enshrined in the Nuclear 
Nonproliferation Treaty. If Iran acquires nuclear weapons 
capabilities while it is signatory to the Nuclear 
Nonproliferation Treaty and under the watch of the IAEA, it 
will send a message that other countries can do the same and 
could incite a renewed arms race.
    If Iran is referred to the U.N. Security Council and we are 
unable to get member countries to agree to multilateral 
sanctions or other punitive measures, as in the case of North 
Korea, it will also signal that being a signatory to the 
Nuclear Nonproliferation Treaty is actually a means to acquire 
weapons technology and that there are no real repercussions for 
doing so.
    At all costs, this means we must be successful: First, to 
preserve our ultimate goal of nuclear weapons eradication. 
Second, to preserve the doctrine of the Nuclear 
Nonproliferation Treaty that we have crafted to help us reach 
that goal. Third, to secure our Nation from a potentially 
nuclear Iran, those who could pass such technology to, and the 
arms race that could ensue. And fourth and most importantly, to 
secure our own security and that of our children.
    Thanks, Mr. Chairman, for calling this hearing and to our 
panel of witnesses that are arrayed before us and those that 
will follow.
    Senator Coburn. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman and 
Senator Carper. I want to commend you on holding this hearing. 
This Subcommittee has a long and valued history of examining 
our national security policy as it pertains to weapons of mass 
destruction.
    It was a major focus of this Subcommittee when I was 
Chairman, as well as when I was Ranking Member under Senator 
Cochran's leadership. I am pleased, Senator Coburn, that you 
are carrying on the great tradition of this Subcommittee.
    The issue of Iran's nuclear policy has been in the 
headlines for many years with little apparent slowdown in their 
efforts to pursue, first covertly and now more overtly, a 
nuclear weapons program, including the means to deploy them on 
long-range missiles.
    Mr. Chairman, I look forward to the testimony by our former 
Congressional colleagues, Representative Gingrich--it is good 
to see you again, Newt--and also Senator D'Amato, good to see 
you again, and other expert witnesses. I thank you folks for 
being here.
    Thank you, Mr. Chairman.
    Senator Coburn. Thank you, Senator Akaka.
    First of all, welcome. Let me introduce our first 
panelists, if I may. R. James Woolsey joined Booz Allen 
Hamilton in July 2002 as Vice President and officer in the 
firm's Global Resilience Practice located in McLean, Virginia. 
Previously, Mr. Woolsey served in the U.S. Government on five 
different occasions, where he held Presidential appointments in 
two Republican and two Democratic administrations. During his 
12 years of government service, Mr. Woolsey was Director of 
Central Intelligence from 1993 to 1995. He was also previously 
a partner at the law firm of Shea and Gardner in Washington, 
DC, where he practiced for 22 years in the fields of civil 
litigation and alternative dispute resolution. He also hails 
from Oklahoma.
    Senator Alfonse D'Amato is the Managing Director of Park 
Strategies, LLC, and served in the U.S. Senate from 1981 to 
1999. Senator D'Amato was first elected to the U.S. Senate on 
November 4, 1980. Known for his tenacity and ability to get 
results, Senator D'Amato served three distinguished terms in 
the Senate, advocating the interests and the people of New York 
State. During his tenure in the U.S. Senate, D'Amato served as 
Chairman of the Senate Banking Committee, Housing and Urban 
Affairs, overseeing legislation affecting America's financial 
institutions, banking, and public and private housing, urban 
development, and trade promotion. Senator D'Amato also served 
on the Senate Finance Committee. He also served on the Senate 
Subcommittee on Health Care, the Subcommittee on International 
Trade, and the Subcommittee on Taxation and IRS Oversight.
    Finally, our third panelist is the former Speaker, Newt 
Gingrich, former Speaker of the U.S. House of Representatives. 
He serves as a Senior Fellow at the American Enterprise 
Institute and is also a Visiting Fellow at the Huger 
Institution at Stanford University. Speaker Gingrich is a 
member of the Terrorism Task Force for the Council on Foreign 
Relations and the U.S. Commission on National Security, an 
Advisory Board member of the Foundation for the Defense of 
Democracies, a member of the Defense Policy Board. Gingrich 
also serves as Co-Chair, along with former Senate Majority 
Leader George Mitchell, of the Task Force on U.N. Reform 
created by the Congress in December 2004. The task force 
delivered its report, entitled ``American Interests in U.N. 
Reform,'' to the Congress this past June.
    He is also an Editorial Board member of the Johns Hopkins 
University Journal of Biosecurity and Bioterrorism and a news 
and political analyst on FOX News. He is the author of nine 
books and novels, including New York Times best-selling 
``Winning the Future: A 21st Century Contract With America,'' 
and most recently, ``Never Call Retreat: Lee and Grant, the 
Final Victory,'' the third and final novel in his trilogy about 
the Civil War, and he is my favorite history professor.
    Director Woolsey, if you would, please.

  TESTIMONY OF R. JAMES WOOLSEY,\1\ FORMER DIRECTOR, CENTRAL 
                      INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you, Mr. Chairman. It is an honor to be 
invited to be with you today. I will submit my four-page 
statement, if I might, and then just speak informally from it 
for a few minutes by way of summary. I am testifying solely on 
my own behalf today, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Woolsey appears in the Appendix 
on page 49.
---------------------------------------------------------------------------
    There was a window of time from the late spring of 1997 
until the late spring of 1998 in which, after President 
Khatami's election, I think it was reasonable for there to have 
been some optimism about the possibility of working with Iran 
and seeing an Iranian evolution in terms of its dealings with 
the West and its neighbors. But that window ended in the spring 
of 1998 as the Iranian government began to assassinate 
newspaper editors, kill students, make mass arrests, and the 
rest.
    And I believe it has not really been the case for those 
years since 1998 that we have had an Iran with which we could 
reasonably work. With the ascendancy of Mr. Ahmadinejad to the 
presidency a few months ago and Iran's rejection, as far as we 
now know, last Saturday of the EU3 proposal from Britain, 
France, and Germany that its nuclear fuel be enriched by Russia 
and not by Iran itself, one would think that even those who are 
most committed to the notion that we can work with this Iranian 
government would have turned into pessimists.
    There is no reason in common sense or economics for Iran to 
be involved in fuel enrichment and processing unless it has a 
nuclear weapons program. This is admittedly a question of 
intent under the current Nonproliferation Treaty. That treaty 
is, I believe, fundamentally flawed precisely because it does 
not bar the expansion of enrichment and processing. For Iran to 
declare that it needs fuel enrichment and processing in order 
to have nuclear power for energy purposes is roughly equivalent 
to its claiming that it must build a factory that produces both 
trucks and tanks in order to be able to buy a few cars.
    The Nonproliferation Treaty regime is, unfortunately, one 
that derives from the Atoms for Peace Program and thus does not 
explicitly bar the expansion or institution of enrichment and 
processing. It is a question of intent. I think the Iranian 
intent is crystal clear to any objective observer, but the 
treaty regime is not one that helps us as much as we might 
like.
    It is clear that Iran hid its fuel enrichment work until 
the IAEA was tipped off in 2003, and then discovered Iranian 
preparation for uranium enrichment via the use of some 50,000 
potential centrifuges at Natanz. Iran constructed a heavy water 
plant and reactor to produce plutonium. Seven covert nuclear 
sites have been built. Traces of uranium enriched to the high 
levels needed for a bomb, rather than the much lower levels 
needed for a reactor generating electric power, have been 
found. And Iran bulldozed one site at Lavizan-Shian, before 
inspectors were allowed to visit.
    Iran has acknowledged acquiring nuclear materials from the 
notorious head of the Pakistani program, A.Q. Khan, in recent 
material obtained by U.S. intelligence--cited in an article 
this past Sunday that many here, I am sure, have read in the 
New York Times by Broad and Sanger--indicates that the Iranians 
are working on a sphere of conventional explosives designed to 
compress radioactive material to begin chain reactions in a 
bomb. They are working on positioning a heavy ball inside a 
warhead to ensure stability and accuracy during the terminal 
phase of a nuclear-armed missile flight. And they are working 
on detonation at a 2,000-foot altitude, which is really 
appropriate only for nuclear weapons, not for conventional, 
chemical, or even bacteriological ones.
    How soon might Iran obtain nuclear weapons? The estimates 
in years that you see are really driven by how soon 
intelligence believes they might be able to enrich enough and 
process enough nuclear material to have enough fissionable 
material for a bomb. But if they obtain the fissionable 
material, particularly highly enriched uranium, elsewhere, for 
example from their erstwhile collaborators the North Koreans, 
they could have a bomb in very short order.
    It should be remembered that although we tested the 
plutonium bomb that we dropped on Nagasaki before it was used 
in combat, 60 years ago the United States felt that the simple 
shotgun HEU weapon that was dropped on Hiroshima was so 
reliable, even though it had never been tested in the history 
of the world, that we dropped it in combat without ever having 
tested it. The designs for simple shotgun HEU weapons are 
available on the web. It is really just a question of having 
the highly enriched uranium.
    So if Iran obtains such highly enriched uranium, even if it 
is not able to enrich enough itself domestically, one could 
quite reasonably be looking at an Iranian nuclear weapon in 
extremely short order.
    I wish I thought that referral to the Security Council and 
potential severe sanctions were likely to be a useful step. It 
may be politically an important thing for us to do 
internationally, but the high probability of Russian, French, 
and possibly Chinese veto of any substantial steps in the 
Security Council and the difficulty of implementing sanctions 
against a country which really exports only oil at a time of 
$60 a barrel oil is a very severe international political 
problem.
    The Ahmadinejad regime is not really accurately 
characterized by the word that the President has used now twice 
to refer to some of the Islamist groups on the Sunni side of 
the divide within Islam. He has used the term ``Islamo-
fascist.'' That is not severe enough for Mr. Ahmadinejad 
because the Italian fascists, although terrible, were not 
genocidal, not explicitly genocidal. Mr. Ahmadinejad and the 
Iranian regime are genocidal.
    He spoke in his own speech of, ``a world without America 
and Zionism. This slogan and this goal are attainable and can 
surely be achieved.'' And Mr. Abbassi, the head of his war 
preparation plan, has said recently, ``We had a strategy drawn 
up, the destruction of Anglo-Saxon civilization. We must make 
use of everything we have at hand to strike at this front by 
means of our suicide operations or means of our missiles. There 
are 29 sensitive sites in the U.S. and the West. We have 
already spied on these sites and we know how we are going to 
attack them. Once we have defeated the Anglo-Saxons, the rest 
will run for cover.''
    I am afraid, Mr. Chairman, Members of the Subcommittee, 
that with respect to this regime, regime change is really the 
only option. I very much hope it would not need to involve the 
use of force. That should only be our last resort, but an 
option that we, under no circumstances, should take off of the 
table.
    There are two chains of policy which it would be useful to 
follow. Reuel Gerecht has recently pointed out in the Weekly 
Standard that if we are successful in moving toward a Shiite 
majority democracy operating in Iraq, it will substantially 
help undermine Khamenei's and Ahmadinejad's rule in Iran.
    And second, Ambassador Mark Palmer has written persuasively 
about how we might engage and work with the Iranian people and 
various Iranian groups that are struggling for freedom without 
enhancing the position of or making concessions to the Iranian 
government.
    Finally, Mr. Chairman, I believe that this situation with 
respect to Iran and its sponsorship of terrorism and its 
nuclear weapons program is such that it would be prudent for us 
to embark upon a major expansion of our own armed forces. This 
would entail a substantial increase, in my view, in the defense 
budget and tax increases to pay for it. I don't believe we 
should balk at this. Earlier generations have sacrificed much 
more, even in the absence of shooting wars. In the early 1960s, 
the U.S.' defense budget was over 9 percent of GDP. That was 
because we changed strategies from massive retaliation to 
flexible response and needed more expensive conventional 
weapons. Nine percent of GDP in today's nearly $12 trillion 
American economy would be a defense budget of well over $1 
trillion.
    Admittedly, we have changed the way we care for old people 
in the last 20, 30, 40 years in the United States with respect 
to Social Security, Medicare, and Medicaid. That has an 
important effect on the Federal budget. But we can't let those 
decisions made in the last few generations about how we care 
for our elderly undermine our willingness to protect ourselves 
and to pay for this protection.
    Appeasement, in my view, whatever euphemism is used, of 
Iran under the current circumstances will not work any better 
than it did with Nazi Germany in the 1930s. Thank you, Mr. 
Chairman.
    Senator Coburn. Thank you. I would like to, with unanimous 
consent, recognize Senator Domenici for a few moments. He is 
going to have to leave. Without objection.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Thank you. First, I want to thank you for 
holding these hearings. I think it is very important. I am very 
sorry that I cannot be here very long. I am hoping to come 
back. But I also want to thank the witnesses. Their presence 
and what I know they have to say is very important.
    I hope that, sooner or later, not only America, but others 
that think like we do, are going to find a way to see that this 
continued build-up stops. We think we know what is going on, 
but it seems like we are struggling to find out what to do 
about it. Ultimately, it seems to me, we can't do that alone. 
We have to do it with others. And yet it is so vitally 
important. The more we know and the harder we try to get to the 
bottom of it and the more we let their new leader and those 
that work with him know what we think about this, I think the 
better off we are and the better off our friends are.
    So thank you to the witnesses. It is good to see you, 
Senator D'Amato. It is a pleasure to have you.
    Senator D'Amato. Good to see you.
    Senator Domenici. And Mr. Speaker, I remember balancing a 
budget with you in the room. I don't know who won, but we got a 
balanced budget.
    Mr. Gingrich. Right.
    Senator Domenici. You got some, I got some, and it was a 
good day. Thank you.
    Senator Coburn. Thank you. Senator D'Amato.

TESTIMONY OF HON. ALFONSE D'AMATO,\1\ FORMER U.S. SENATOR FROM 
                     THE STATE OF NEW YORK

    Senator D'Amato. Thank you very much, Mr. Chairman. I want 
to commend you for these hearings. I think it is probably one 
of the most, if not the most, important issue of the day, and 
somehow we seem to miss it. I would ask that the full text of 
my remarks be submitted in the record as if read in its 
entirety.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator D'Amato appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    Senator Coburn. Without objection, all submitted statements 
will be included in the record.
    Senator D'Amato. Mr. Chairman, I couldn't help but reflect 
on the very challenging remarks made by former Director 
Woolsey. He is someone who understands what it is like to deal 
with the despots and the dictators and the kinds of regimes and 
the one in particular that now represents Iran.
    All the wringing of hands in the world isn't going to 
change the situation. All of the threats and the bellicose 
nature on our part that we sometimes seem to engage in is not 
going to change it. Threatening of the new leader--you raised 
the question as to what does he want and what does he 
represent. He was elected by a landslide with the 
fundamentalist and the mullahs supporting him, but he made an 
appeal to the poor, to the so-called disenfranchised, to the 
young people who are without jobs, and that obviously played a 
great part in the size of his victory over a cleric. No one 
really expected his victory to be so complete.
    And he has all of the things that you mentioned and that my 
former colleague from New Jersey talked about in terms of the 
destruction of the State of Israel. That is not the kind of 
rhetoric that one should take lightly, understand, and Jim 
Woolsey understands.
    The passage of sanctions, and I was proud to be one of 
those in the forefront of sponsoring and getting legislation 
passed, the Iranian-Libyan Sanction Act, known as ILSA, that 
was signed by the President into law on August 4, 1996, and at 
the White House ceremony, President Clinton said, ``The 
greatest enemy of our generation is terrorism,'' and that the 
United States will not shirk its responsibility to lead in the 
fight against it. We have. We have.
    If I were to suggest to you that the passage of ILSA was 
almost impossible were it not for some bombings and events that 
took place and the downing of an airliner that shocked the 
conscience of the world, we wouldn't have passed that. It was 
some of the industrial giants of this Nation who were opposed. 
They were more concerned about being able to do business with 
Iran and Libya and the loss of income. We had to construct 
legislation which gave all kinds of prerogatives and waivers, 
and we had to reduce substantially the penalties imposed. It 
was incredible.
    So it was only a shocking event that made it possible for 
us to pass that legislation, and I have to tell you, even 
though it was administered over a period of time, and 
sometimes, I think, inadequately when various presidents gave 
waivers to other countries, like to the French and to TOTAL in 
terms of their conducting business there, it did have quite an 
impact. As a matter of fact, going back to 2001 when the bill 
came up for renewal, the Administration was not happy about it 
and tried to limit it to 2 years instead of 5 years.
    Indeed, testimony demonstrated that we had probably cut 
monies that would have flowed into Iran for investment and 
furthering their money-producing industry, which is oil and 
gas, that we cut it substantially. They were able to get 
investments of only $8 billion of foreign capital, whereas you 
take a country like Qatar, very small, not nearly the kind of 
resources in terms of energy that Iran had, and they had twice 
as much. Indeed, Iran at that time was using 40 percent of its 
oil for domestic purposes and their oil industry and gas 
industry was fading in terms of their production.
    Had we really stuck at it and enforced that embargo and not 
turned our head, we might have had a different result. But what 
we call the policy of constrictive engagement, by saying to 
them, when you undertake the kinds of actions that are 
threatening, we will tighten, we will punish you. And when you 
don't just speak but act, why, then we will reward you.
    And bringing in the world community--you cannot do this 
alone. Mr. Woolsey is absolutely right. But I have to tell you, 
I think there is--in our approach to this, I feel more 
optimistic than he does in one sense. You see, they talk about 
the Shahab missile--they can go 1,000 miles--that the Iranians 
have developed and that they are looking to be able to put 
nuclear capabilities into that missile. I am not concerned 
about that. They are not going to use that missile because 
mutually assured destruction works, and even the MAD people 
understand that.
    But what I am concerned about is the terrorist threat that 
nuclear capabilities and fissionable materials in their hands 
permits, because while we can by way of mutually assured 
destruction, which has worked over the years with the Russians 
and with others, there is no such threat to terrorists and you 
don't have the capability to say with definiteness that these 
materials, these suitcase bombs were made available, for 
example, by Iran to the shadowy groups. It is the greatest 
threat that mankind faces today, and yet we do very little.
    In just talking to one of your witnesses who came up here, 
there is a great company that works in the United States that 
does hundreds of millions, if not billions of dollars worth of 
work, and yet they are at the centerpiece of helping design and 
create an opportunity for Iran to have a bomb. Is that amazing? 
That is Siemens, a German company. Amazing. And we do nothing 
to stop it.
    Now, for the first time, it seems to me, we have an 
opportunity to forge a real alliance with countries who have 
not traditionally been our allies, the Russians, because if 
there is any country that faces a challenge as great, if not 
greater, from some of the fundamentalists, it is the Russians.
    And so we have the ability, and I think some of our allies, 
even those who have not been so supportive of us and our 
policies and we have had discord with, for the first time are 
beginning to recognize what this extremism and what terrorists 
represent as a way of a threat to them and to their people, and 
I am talking about the French, and I will mention the Germans. 
I think we have, for the first time, an opportunity to build a 
coalition and we cannot afford to go it alone.
    I am not suggesting that we can allow them to build with 
impunity those kinds of devices that we would have to and be 
ready to take whatever action necessary to defend ourselves, 
very much like Israel did in Osirak in 1981 when they took that 
facility out. But I think that by utilizing the kinds of 
legislation and putting in a program of restrictive engagement 
with Iran, we might be able to tell and demonstrate to them and 
to the world that we mean business. That is a way of utilizing 
collectively our economic force, but it has to be collectively. 
I think it can work.
    It is not going to be easy and the Iranians will test us 
and we will have to demonstrate that we are willing to meet 
that challenge. And we will have to make it clear to our allies 
that we need them. But we can't do it in a bellicose way. We 
have got to work behind the scenes and work hard to build that 
kind of coalition. If we fail to do that and fail to get into 
this ring and take on this incredible challenge, I think we 
betray everything that we are about.
    Again, I am concerned that the economic interests that some 
of our own international corporations are more interested in 
still have a lot of sway in this country and I would hope at 
this critical time that we would be able to look back on 
history and see what has taken place when we fail to stand up 
and to do what is right. It is a great responsibility you have, 
and to be quite candid with you, I don't see that you have 
great public support to rally to take on this cause. And yet I 
can't think of one that is more imperiling and more challenging 
than the one we face today with the spread of nuclear weapons, 
particularly in the hands of terrorists that make it almost 
impossible to stop if they were to get these devices.
    So thank you, Mr. Chairman, for your holding this hearing 
today and trying to focus some attention and the spotlight on 
this important issue.
    Senator Coburn. Thank you, Senator D'Amato. Speaker 
Gingrich.

TESTIMONY OF HON. NEWT GINGRICH,\1\ FORMER SPEAKER, U.S. HOUSE 
                       OF REPRESENTATIVES

    Mr. Gingrich. Let me, first of all, thank you for calling 
these hearings and for focusing attention on this very 
important topic. I ask that my written testimony be submitted 
for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gingrich with attachments appears 
in the Appendix on page 57.
---------------------------------------------------------------------------
    Senator Coburn. Without objection, so ordered.
    Mr. Gingrich. I want to start by reemphasizing a little bit 
of what my two colleagues have commented on. I think we could 
be entering a decade that is extraordinarily dangerous. Let me 
give you three futures, and I say this in the context of 
everybody who said after September 11, ``oh, gee, why didn't 
anybody think of it?''
    The first future is simple. Tel Aviv and Jerusalem are 
wiped out in one morning. President Ahmadinejad said recently, 
October 28, that Israel should be ``wiped off the face of the 
earth.'' Rafsanjani said in December 2001, when Iran gets 
nuclear weapons, ``on that day, this method of global arrogance 
would come to an end. This is because the use of a nuclear bomb 
in Israel will leave nothing on the ground, whereas it will 
only damage the world of Islam.''
    Now, these aren't made-up quotes. My first question for 
this Subcommittee and for the Members of the House and Senate 
and for the Administration is, why have a Holocaust Museum in 
Washington, getting together occasionally to say, never again 
is the lesson of the Holocaust, and then when you are told 
explicitly that you have somebody who wants to wipe out Israel, 
we try to find some way to avoid confronting the reality?
    Second, consider a future where Iran develops ship-borne 
missiles with nuclear weapons that could threaten the United 
States directly. They have already tested in the Caspian Sea a 
ship-borne missile. There is every reason to believe that 
within a decade, they may acquire such a missile. And one of 
the great complexities of the modern world is that we don't 
control all the technology in the democracies. The North 
Koreans have technology. The Chinese have technology. The 
Pakistanis have technology. The Russians have technology. And 
the idea that the Iranians at $60 a barrel won't be able to buy 
technology strikes me to be a complete misreading of the modern 
world.
    Third, imagine that by 2010, there is an Iranian-Chinese-
Russian alliance to block U.S. influence in the Persian Gulf. 
China is the most rapidly growing purchaser of oil in the 
world. The Chinese have a long-term contract with Iran. The 
Chinese have a deep interest in the region. The Russians very 
badly need hard currency. The Russians would like to prove they 
are independent of us. I don't think it is a particularly 
difficult act of imagination to believe that by the end of this 
decade, we could see those three countries actively blocking us 
in the Persian Gulf.
    Now, I think these are all practical, real threats, but let 
me remind you of some recent quotes, because I want you to 
understand how totally real this is. There is a picture that is 
also in your packet that shows President Ahmadinejad standing 
in front of a huge poster in which the United States has 
already fallen to the ground and been shattered and Israel is 
in the process of falling to the ground. Now, this by the way, 
was all done in English. Unlike Adolf Hitler, who did require 
you to either get a translation or to read German, they are 
quite cheerful about flaunting in our face the degree to which 
they are determined to destroy us.
    Let me give you some examples. Ahmadinejad speaking on 
October 28 said, ``They say, how could we have a world without 
America and Zionism, but you know well that this slogan and 
goal can be achieved and can definitely be realized.''
    Hassan Abbassi, a Revolutionary Guard intelligence advisor 
to the president, August 30, 2004, ``We have a strategy drawn 
up for the destruction of Anglo-Saxon civilization. We must 
make use of everything we have at hand to strike at this front 
by means of our suicide operations and by means of our 
missiles.''
    Ayatollah Ali Khamenei, June 24, 2004, ``The world of Islam 
has been mobilized against America for the past 25 years. The 
peoples call, `Death to America.' Who used to say, `Death to 
America'? Who, besides the Islamic Republican and the Iranian 
people used to say this? Today, everyone says this.''
    The point I am making is, by any standard of the 1930s, you 
have an Iranian dictatorship which is openly, clearly seeking a 
method of eliminating Israel, which would be an act of 
genocide, and defeating the United States and Great Britain and 
says so publicly.
    I am submitting for the record, we are not going to ask to 
play it today, but there is an 11-minute animated film, a 
cartoon, that was shown on Iranian television on October 28, 
designed to recruit children to be suicide bombers. We have 
given a copy of the DVD to every Senator. I would urge you at 
some point to watch it. It is effective, it is chilling, and 
this was shown on state television. Basically, it is designed 
to recruit young people and to say, committing suicide on 
behalf of Allah is a good thing to do and being a suicide 
bomber is a reasonable occupation because the other side is so 
evil.
    The points I would make are, I think, probably more direct 
than we normally hear. I think that the measure that the Senate 
should establish and the House should establish for dealing 
with Iran is very straightforward. Will it be effective?
    Let me just say a brief word about sanctions. We have had 
sanctions against Fidel Castro since 1960. We had sanctions 
against Saddam Hussein for years. If you read carefully the 
record of the sanctions against Saddam Hussein, it does three 
things. It strengthens the dictatorship, because they are the 
only people with money. It leads to massive levels of 
corruption. And everything they need gets through.
    Now, any person who believes that the second-largest source 
of oil and natural gas on the planet, in a time when China and 
India are desperately buying everything they can get, can be 
significantly crippled by a sanctions regime, if you are 
prepared to say you want a naval blockade and nothing goes in, 
you can make some case for this. But short of that level of 
intervention, which is, again, something you would have to 
sustain for a long time, countries don't collapse. This is 
historically not how things happen.
    We have two choices. We can decide to live with a 
genocidal, homicidal regime which is openly explaining it seeks 
to destroy us and then we can hold hearings after we lose Tel 
Aviv and Jerusalem and maybe lose New York and Atlanta and say, 
gee, why didn't we do anything, or we can study seriously the 
lesson of Winston Churchill in the 1930s, when, by the way, the 
British and French did nothing, the League of Nations was 
pathetic.
    I would just commend you, read what the Secretary General 
said. He read with ``dismay.'' He couldn't bring himself to 
condemn. He couldn't bring himself to say it was wrong. But he 
topped out at dismay when the President of Iran proposed 
eliminating Israel from the face of the earth. Read what the 
Security Council did. They couldn't even come to a resolution. 
They issued a press release, and the word ``pathetic'' comes to 
mind.
    Senator Santorum's bill is a useful, small first step. It 
should be the policy of the United States of America to replace 
this regime. We should communicate to our allies around the 
world, we would like to have their help. We should communicate 
to international institutions that to the degree they wish to 
be effective, we would like to participate. We should not allow 
``can't'' to hide behind. We should not allow resolutions that 
are meaningless, proposals that have no teeth, or regimes that 
will have no effect.
    We should indicate clearly that we are the allies of all 
the Iranian people who would like to live in a non-homicidal, 
non-totalitarian regime, and we should indicate unequivocally 
that at some point in the not-distant future, there will be a 
new government of Iran and a simple, small first step would be 
to move to suspend Iranian membership in the U.N. as long as 
the head of the government is claiming the right to eliminate a 
fellow state.
    Now, if we don't have the nerve to stand up and say, this 
is homicidally wrong and we have been warned, there is no 
reason to believe that our European friends, whose record of 
appeasement is unending, are going to have any nerve, and there 
is no reason to believe that any international organization is 
going to have any effectiveness.
    If, on the other hand, we are determined to win in the 
Middle East, we are prepared to do what it takes, and we are 
prepared to communicate unequivocally to our friends and allies 
that we will do what it takes, I suspect a number of countries 
will end up helping us and a number of countries will end up 
being actively in favor of replacing the current government. I 
think anything short of replacing the current government is 
basically irrelevant, and I think you should expect at some 
point in your lifetime to see a major war, and probably a 
nuclear war, if this government is not replaced.
    Thank you for allowing us to be here.
    Senator Coburn. Speaker Gingrich, thank you very much.
    Next week, on November 24, IAEA is expected to debate the 
issue of Iran. This will be a follow-up to their last 
discussion this past September. They fell short of passing a 
resolution to send to the Security Council to consider 
sanctions.
    If the IAEA is not able to garner sufficient support to put 
pressure on Iran, what is the effectiveness of the IAEA? Does 
anybody want to answer that? In light of the testimony that we 
have had here today and they can't garner the support to create 
a mechanism with which to sanction, just to sanction the 
statement that this is wrong, or as Speaker Gingrich 
recommended, removal, what is the effectiveness of IAEA?
    Mr. Gingrich. I recently co-chaired with former Majority 
Leader George Mitchell a task force on United Nations reform. I 
am going to speak only for myself, but we spent more than 6 
months looking at the entire international system.
    I think we have to get away from the notion that there is 
moral authority inherent in meetings of people who do nothing 
meaningful. That is, the IAEA should see itself as being under 
test next week, not the United States. If the IAEA cannot bring 
itself to adopt a firm resolution reporting this to the 
Security Council, and if the Security Council cannot take 
decisive action, then the United States' attitude should be, 
these are irrelevant institutions that are not, frankly, very 
useful. I think the institutions should be served notice that 
they are the ones who are being judged by history, not those of 
us who are concerned about the Iranians.
    But to allow ourselves to be handicapped, as we have been, 
for example, in Sudan, where we wring our hands, virtual 
genocide occurs, there is an argument about whether enough 
hundreds of thousands of people have died in Darfour to count 
as true genocide or simply mass murder, and nothing happens 
because the Chinese are getting oil and the French are getting 
sales, and then we say, well, gee, we can't do anything because 
the Security Council can't act. In the case of Sudan, it is a 
tragedy for the human race. In the case of Iran, it is a direct 
threat to the survival of the United States and we should serve 
notice that an impotent IAEA and an ineffective United Nations 
simply mean we will pursue our diplomacy elsewhere and not, 
frankly, worry much about their ineffectiveness.
    Senator Coburn. Mr. Woolsey.
    Mr. Woolsey. I agree with Newt, Mr. Chairman. I would only 
add that I alluded in my opening remarks to the ineffectiveness 
of the nonproliferation regime because it does not explicitly 
bar enrichment and fuel processing. So it gives the hesitant or 
the bribed an out. It lets a Russia or a France effectively 
say, ``well, we can't say that there is a violation of the 
letter of the treaty. It is all a matter of intent. So, let us 
talk some more.''
    Senator Coburn. Are you suggesting that treaty be opened up 
to be revised?
    Mr. Woolsey. In an ideal world, one would have a treaty 
regime which had two separate functions. One was to help 
countries that needed help develop adequate energy of different 
kinds. Sometimes, that might mean a nuclear reactor for 
electricity generation. I tend to think mainly it would be 
other types of energy. But even if that assistance or 
encouragement was provided and even for nuclear power 
generation, there would be no reason under this mythical regime 
we are just sort of inventing here, to permit fuel processing 
or enrichment. There is plenty of that capability in the world 
in the five named nuclear powers. There are 30-some countries 
in the world that have electricity generation from nuclear 
reactors and don't have fuel processing and enrichment.
    So I would think, yes, ideally, we would move to a separate 
regime that did not permit fuel enrichment or processing to be 
newly constructed. But trying to restructure the current regime 
of international controls at the time we are facing similar 
cheating from North Korea and Iran would be an extraordinary 
diplomatic undertaking. It might be worthwhile trying to begin 
it in order to show our disdain for, or lack of satisfaction, 
for some, but in any case the unsatisfactory nature, of the 
current nonproliferation regime. But the chance of actually 
getting a completely restructured regime that the world could 
go along with over the course of the next few years is tiny. I 
think it would be a titanic task.
    Senator Coburn. Senator D'Amato, do you want to comment?
    Senator D'Amato. Mr. Chairman, we have to find out what the 
IAEA will do because they have, for the first time, I think, 
seen very clearly what is taking place. They heard the words of 
the Iranians. I am much more hopeful that they may act in a 
more forward way. It is not going to bring about regime change, 
and let me ask you, how do we bring about regime change? Are we 
talking about a blockade? Are we talking about an attack? It is 
very easy to say, let us bring about regime change.
    And what policies do we undertake? Do we take Radio Free 
whatever it is, beaming it into Iran? Do you think that is 
going to bring about a regime change? And it is one thing to 
say that sanctions have never worked, but the fact of the 
matter is that they have had an impact, and I talked about 
Libya.
    Now, if we want to sit around and just wring our hands and 
say that they don't work, I respectfully disagree. But it can't 
be sanctions alone. It has to be engaging countries who 
heretofore have not been willing to back it up and make those 
sanctions effective. And if that means an embargo at some point 
in time, that is why I said I referred in my speech to 
constrictive engagement, to constrict them. If they begin to do 
the things they are supposed to do and they demonstrate it, 
don't talk about it, then we will reward them. And if they 
don't, we squeeze harder and harder.
    So if we are going to talk about regime change, I don't 
think the American people are willing at this point in time to 
say, let us go to war. Let us bomb them. How do you bring that 
about?
    I am suggesting to you that you don't bring it about 
without involving the world community, and that is hard work. 
That is not easy. But let me tell you, there is a community of 
interest, Mr. Chairman, that we have to explore to become 
involved in this battle. What is the biggest threat to the 
Russians? The Chechens and the same kind of terrorism that they 
face. I am not suggesting that the Russians are all good guys, 
but let us use our allies or those people.
    There is an old thing that I used to hear the 
Administration talk about, I don't necessarily agree with it, 
the enemy of my enemy is my friend. So, consequently, let us 
begin to turn that around and if we have an opportunity to 
involve the Russians and others in this battle, let us see if 
we can't do it. If we have to go it alone, that is another 
matter and I say then we should do it.
    Senator Coburn. Speaker Gingrich, in your testimony, you 
outlined the eight steps for regime change. Would you mind 
commenting on those now? I think it is appropriate, since 
nobody is talking about armed conflict here, but nobody has 
taken that off of the table, but that is not the purpose and 
the focus of our hearing today. I would like to hear Speaker 
Gingrich comment, if he would, on the eight steps that he 
talked about in his testimony in terms of regime change.
    Mr. Gingrich. Well, let me say first, I think the first key 
step is victory in Iran. I think the rise of a democratic 
Shiia, largely Shiia government--60 percent of the population 
is Shiia--would have a substantial impact on the Iranian 
people. Every indication we have is the younger Iranians 
desperately would like to have an open regime, that this is, in 
fact, a relatively unpopular regime and that there is a 
substantial well of discontent in Iran. I think winning in Iraq 
and being decisive in helping the Iraqi people run their own 
country is a very important step in the right direction.
    Second, I think it is very important for us to say openly 
and aggressively what kind of regime this is. The recent 
description, for example, of a young girl, 16 years of age, 
being strangled to death because she behaved immorally by 
walking hand-in-hand with an older man, and so she was publicly 
hung without using a hangman's knot and for 11 minutes, she 
gradually, slowly choked to death as a symbol. People don't 
describe how vicious this regime is, and we are not aggressive 
enough in saying publicly, these are bad people who do bad 
things and we want to be the allies of the good Iranians, and 
frankly, I think, a Radio Free Iran does help.
    Ronald Reagan rolled back the Iron Curtain, eliminated the 
Soviet Union, and didn't fire a single shot outside of the 
Afghan campaign, but if you think about all the rest of the 
things that were done in the Soviet Union, they were all 
economic, political, and diplomatic.
    Third, I think it is very important for us to say that we 
favor freedom in Iran and we favor an Iran that doesn't favor 
its neighbors. There is very profound testimony by Natan 
Sharansky, who was in the Soviet gulag at the time Ronald 
Reagan used the term ``evil empire,'' and his vivid emotional 
explanation of the power of an American President to really 
send signals.
    We should send a signal to the Iranian people. Every 
Iranian who wants to live in peace with their neighbors, we are 
your allies. Every Iranian who wants to live in freedom, we are 
your allies. Every Iranian who wants to live in a prosperous, 
middle-class society, we are your ally, and make it quite clear 
who we are opposed to.
    Fourth, there are democracy movements. At a time when the 
Iranian dictatorship provides somewhere between $100 and $200 
million a year to Hezbollah, the fact that we can't find a way 
to provide a couple hundred million dollars a year to those who 
want to free Iran is just utterly irrational. I mean, the 
ineffectiveness of this Administration and its predecessor to 
have any kind of coherent strategy--at one point there was, I 
remember, a television satellite program out of Los Angeles by 
Iranians who live in Los Angeles. We couldn't even get support 
for that. It was just utterly manically stupid.
    I think the notion ought to be, let us match them. Every 
dollar they spend on Hezbollah, we will match undermining the 
current regime, and that would be a reasonable deterrent.
    Fifth, we have got to think through a strategy on Russia 
and China. Right now, Russia and China have no long-term 
incentives to not deal with Iran, and whether that means, for 
example, we say to the Chinese there is an American market and 
an Iranian market. Choose. The Chinese would not be able to 
choose the Iranian market in that setting. But I think it also 
means you have got to find ways to deal with the things they do 
need, which in the Russian case is hard currency and in the 
Chinese case is oil.
    Sixth, and we probably do disagree on this, I think the 
direct application of sanctions--selective sanctions make a lot 
of sense, and selective technology control makes a lot of 
sense, and putting a lot of pressure on Germany, France, and 
others about selective technology makes sense. Broad sanctions 
don't make sense because they will just be porous. All you will 
do is punish Americans because you can't get anybody else to do 
it.
    Seventh, I think it would be helpful to start establishing 
special tribunals for members of the Iranian Republican Guard 
Corps and those who are human rights violators. It is important 
to set a principle, which certainly we are seeing in Iran, 
which we should be seeing in Sudan, and by the way, we did call 
for this in our bipartisan Task Force on U.N. Reform. We think 
there ought to be a principle established that when you are 
destroying human beings and you are killing human beings, that 
you will be brought to account even if it is not today. We 
think that actually does act as an inhibition against this 
behavior.
    I think two last things are that we have got to look at a 
ballistic missile defense and also at a defense against 
electromagnetic pulse, which I think is the most serious 
technical danger to the U.S. today. But a ballistic missile 
defense in the region. We should be able to say to the Gulf 
states that want to side with us, we should be able to say to 
Kuwait or to Iran as well as Israel that we are prepared to 
defend against the Iranian weapons of mass destruction.
    And finally, I think there should be a contingency plan, A, 
if the regime collapses, or B, if a civil war breaks out. Iran 
is not a purely Persian country run by a coherent dictatorship. 
In this sense, it actually is not like Nazi Germany. Iran has a 
very large population that is non-Iranian. They have a lot of 
people who are not happy with the current regime. And under the 
right circumstances, you could, in fact, imagine a civil war 
breaking out in the country, and we ought to have though 
through strategically in advance what we would do in those 
circumstances.
    Senator Coburn. Thank you. Senator Carper.
    Senator Carper. No questions
    Senator Coburn. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Chairman Collins. Senator Carper totally surprised me 
there, so I am not as ready as I was going to be.
    To follow up on Speaker Gingrich's comments on what we 
could do, Mr. Woolsey, in your testimony, you discuss 
engagement with the Iranian people and Iranian groups who are 
struggling for freedom and you go on to say that such efforts 
would probably require more U.S. presence in Iran. Could you 
describe in more detail how the United States could engage the 
more moderate population to bring about change? How do you get 
more U.S. presence in Iran?
    Mr. Woolsey. It is my understanding, Senator Collins, that 
there is an Iranian interests section in the United States that 
has about 50 Iranians in it. Many or most, even perhaps all of 
these may have dual nationality. But nonetheless, we have 
nothing like that in Iran.
    I don't think under the current circumstances it would be 
wise to have formal recognition and exchange of ambassadors. 
There may have been a time when that would have been 
reasonable. In the spring of 1997, right after Khatami was 
elected would have probably been a good time. But now, one 
doesn't want to look like one is giving any kind of a positive 
nod to Mr. Ahmadinejad in light of the events of the last few 
months. But I think an Iranian interests section, an American 
interests section in a friendly embassy, Swiss or some other, 
in Iran in which we could have some people on the ground would 
probably be a plus.
    Whether we do that or not, we ought to be engaging 
financially and personally with Iranian dissident groups in 
this country, and with Iranian exiles in the region. We ought 
to be blanketing that country with broadcasts--not only Radio 
Free Europe-type broadcasts in Farsi and Arabic, but we ought 
to be ridiculing these mullahs and Ahmadinejad. I would go, 
frankly, to the two gentlemen who run and have created South 
Park and ask them to come up with some films ridiculing these 
people. If you have seen Team America World Police and see what 
they have done to Kim Jong Il, it is impossible to look at Kim 
Jong Il after seeing that movie and not burst out laughing.
    I think we should basically, with all the tools of American 
communications, of our civil liberties organizations, our NGOs 
working with Iranian exile organizations, with ridicule, as I 
have said, turn up what used to be called out at the CIA the 
``great Wurlitzer.'' And we don't need to do this covertly, the 
way it was done back in the late 1940s and 1950s. This can all 
be done--as far as I am concerned, it is better to do it--
overtly and to put a stake in the ground by the way we 
undertake these actions.
    I would say that two people have looked at this more 
thoroughly and carefully than I, my friend Mike Ledeer, who is 
at the American Enterprise Institute, and my friend Ambassador 
Mark Palmer, who was my Vice Chairman when I was Chairman of 
the Board of Freedom House. Mark was also the American 
Ambassador in Hungary at the end of the 1980s and beginning of 
the 1990s and practiced himself as an ambassador some of the 
types of engagement with Hungarian dissident groups and the 
like which bore fruit. So I would pull together Mike Ledeen and 
Mark Palmer and get some creative ideas from them on some of 
these areas, as well.
    Chairman Collins. I, of course, did not get any of the 
movie references. I just want to go clearly on record on that. 
[Laughter.]
    Mr. Woolsey. One wants to watch out for Team America World 
Police. There are some rather gross parts to it. [Laughter.]
    Chairman Collins. In August, the Washington Post reported 
that the national intelligence estimates reassessment of Iran's 
nuclear capability judged that the country was approximately 10 
years away from being able to deploy a nuclear bomb. Do you 
agree with that assessment?
    Mr. Woolsey. That must be because they are assuming that 
the Iranians are enriching their own uranium, and processing 
their own plutonium or fuel, all domestically. I haven't seen 
the estimate and it may well be a reasonable one under that set 
of assumptions.
    But if they are able to obtain from, say, North Korea, with 
whom they have a close working relationship on ballistic 
missiles--essentially, the Taepodong and the Shahab are the 
same missile. It is a joint North Korean-Iranian missile 
program. If they were able to obtain from North Korea a few 
kilograms of plutonium or slightly more of highly enriched 
uranium, especially with highly enriched uranium, they could 
have a bomb much sooner than that. It is, unfortunately, rather 
easy to make a highly enriched uranium bomb. They might not 
have something they could put on the front end of a Shahab 
missile and launch at Israel, but something that could be 
detonated on a tramp steamer in New York Harbor, it is entirely 
plausible, I am afraid.
    Chairman Collins. Speaker Gingrich, do you have any comment 
on that?
    Mr. Gingrich. My only comment is that several years ago, 
the North Korean public television--which is the only 
television, I guess, in North Korea--North Korean television 
showed an Iranian delegation visiting with the beloved leader, 
wandering around looking at missiles in sort of a missile 
bazaar. He is there saying, this will be a great one for you to 
buy.
    So in a world where you can put the amount of material that 
Mr. Woolsey is describing in a suitcase, put it on an airliner, 
and have it show up, the notion that any planning agency--we 
have been through this whole thing with Iraqi WMD, but what 
people tend to forget is in 1991, when we actually got a chance 
to look at where Iraq was, they were radically closer to having 
a nuclear weapon in 1991 than anybody in the Western 
intelligence community thought possible.
    So anybody who says to you that they can't get a weapon in 
the next decade doesn't have a clue what they are talking 
about. There is clearly a desire to get a weapon. There is 
clearly a world market of knowledge on how to get a weapon. And 
I think a prudent country would assume that at some point in 
the not-distant future, the Iranian regime is going to have a 
nuclear weapon.
    Chairman Collins. Thank you. I want to thank all three of 
you for your testimony on a very important issue.
    [The prepared statement of Senator Collins follows:]
                 PREPARED STATEMENT OF SENATOR COLLINS
    Iran has been seeking to develop both indigenously and through 
foreign acquisitions nuclear technology, ostensibly for ``peaceful'' 
purposes. Repeatedly, the Government of Iran has insisted that, under 
the NPT, it has an ``inalienable right to have access to [nuclear] 
technology for peaceful purposes.'' But, as virtually every nuclear 
expert can attest, a full-blown ``peaceful'' nuclear program, with a 
uranium enrichment program in tow, is only a small step from having a 
nuclear weapons program itself.
    While Iran's explicit intentions may be obscured, some facts are 
indisputable. The June presidential elections brought to power a more 
hard-line regime in President Ahmadinejad. Moderates and so-called 
pragmatists were purged from parliament in the previous year. Not 
surprisingly, Freedom House has rated Iran's adherence to fundamental 
political and civil rights for its citizens next to last. Then, on 
October 28, President Ahmadinejad declared his desire for Israel to be 
``wiped off the map.'' And, of course, Iran's support for terrorism has 
not abated at all. Combine these facts with the increase revenues from 
oil that Iran is receiving and, at least in the short run, we are 
facing a very difficult problem.
    Yet, one thing I think that is important to keep in mind when it 
comes to Iran is that, in most places in the Middle East, some of the 
government leaders are friendly to the United States, but their 
populations are anti-American; in Iran, it's just the opposite. Iran's 
leaders are virulently anti-American but, poll after poll, indicates 
that most of Iran's population views the United States in a positive 
light. How we might use this singular bit of good news when it comes to 
Iran is something I will be anxious to hear form our distinguished 
panel of experts.

    Senator Coburn. I believe by early bird rules, Senator 
Lautenberg was here ahead of Senator Dayton, and so we will 
recognize Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. Unfortunately, 
the subject is not only complicated, but interesting, as well, 
and it would be good if we could have a little freer dialogue 
about it.
    I want to remind my friend Al D'Amato that he and I were on 
the Pan Am 103 investigating committee and it was realized then 
that Libya had a hand there and that sanctions worked, Newt, so 
they do work in some cases.
    And otherwise, I look at things--we talk about flexing 
muscles, but if you don't have muscles, there is nothing to 
flex. Right now, with our situation, we have seen what happens 
when our troops are committed to a serious engagement in more 
than one place, and they are. We are spread around the world. 
We don't have the reserves to send out the naval blockade that 
we would like to see and things of that nature.
    While I agree we ought to make changes, to me, one of the 
worst things that I see happening is what I will call sabotage 
from within. It is an incredibly disloyal situation. I wore a 
uniform. Everybody in those days was concerned about keeping 
secrets, and if there was ever a company who did business with 
the enemy, by God, they would be sunk either by a mass uprising 
or law promulgated.
    And so I ask for Mr. Woolsey and Mr. Gingrich and Senator 
D'Amato, there is a loophole in the law that allows U.S. 
companies to do business with Iran through its foreign 
subsidiaries. I ask you, should that loophole be closed? Mr. 
Woolsey.
    Mr. Woolsey. I certainly think so. I think any pressure is 
good, and I think Newt's point is a good one, that general 
sanctions--particularly for a country that has the oil reserves 
Iran does and oil being as desired and the market being as 
strong for it as it is--are most unlikely to be effective. But 
specific sanctions dealing with particular types of 
technology----
    Senator Lautenberg. Well, I wonder if I could restrict you 
to do that, the answer you initially gave and you said yes. I 
would ask Mr. Gingrich, because we have time limitations.
    Mr. Woolsey. Sure.
    Mr. Gingrich. I am for cutting off specific technologies, 
but I am not for punishing American companies in settings where 
you clearly have replacements from other countries. Having the 
Chinese provide something we don't provide doesn't strike me as 
helpful.
    Senator Lautenberg. But let me understand. We are talking 
about not the competitive environment. We are talking about 
whether or not American companies ought to be allowed to do 
business with an avowed enemy, as we all clearly understand, 
through some sham structure by having a headquarters or an 
operating facility in Dubai and headquarters in the Grand 
Cayman. Should that loophole be closed, or should we just let 
it go?
    Mr. Gingrich. I think sanctions against a country like Iran 
should be very selective and primarily aimed at keeping 
technology out of their hands.
    You and I just disagree, Senator. I don't think it does any 
great advantage to our long-term goal to enable five other 
countries to sell precisely the same product rather than the 
United States. I don't see how--you haven't affected Iran at 
all.
    Senator Lautenberg. Should we help them develop revenues, 
this enemy of ours, develop revenues by helping them produce 
their oil more efficiently to be used to fund Hezbollah and 
Hamas and the others? Is that an appropriate thing, in your 
mind?
    Mr. Gingrich. I am for changing the regime, not annoying 
it.
    Senator Lautenberg. Well, when do you want to change it 
next week or do we do something relatively immediately to 
change it?
    Mr. Gingrich. Ronald Reagan was very deeply opposed to the 
Soviet Union and thought that the wheat cut-off was totally 
stupid because the only people it hurt were farmers in the 
Midwest, OK?
    Senator Lautenberg. Yes----
    Mr. Gingrich. Reagan was very selective in the things that 
we isolated the Soviet Union from because he had a very 
conscious strategy of dismembering the regime and it worked.
    Senator Lautenberg. Thank you very much. Senator D'Amato, 
do you think we ought to close loopholes for companies that----
    Senator D'Amato. We should absolutely close the loopholes. 
The President would always have the right to make exceptions 
where he finds, for food, for medicine, etc. But the loopholes, 
in general, should be closed.
    Senator Lautenberg. Thank you.
    Senator D'Amato. This, then, would force whoever was 
attempting to do business to come in and make the case. You 
wouldn't have, for example, a Siemens--admittedly, it is not an 
American company, but it does a heck of a lot of business here, 
probably more than any other place--you could then get them to 
stop giving the kind of technology that is helping these 
rascals build a bomb.
    Senator Lautenberg. Absolutely. Separate subject. I agree 
with you totally there.
    I want to ask, again, our three friends here, foreign 
subsidiaries of American companies cannot do business with 
Cuba, but under current law, they can do business with Iran. Is 
Cuba a bigger threat to America than Iran?
    Mr. Woolsey. No, it is not, and I would agree with closing 
that gap but using it, essentially, with exceptions, using it 
basically the way Newt said.
    Senator Lautenberg. Mr. Gingrich.
    Mr. Gingrich. No, I think Iran is a much bigger danger to 
the United States than Cuba.
    Senator D'Amato. I agree with Newt and Mr. Woolsey.
    Senator Lautenberg. Let me say this, and I appreciate the 
fact that we can differ on things and I respect your ability to 
express it. I am dug in deep on this because when I see kids 
from New Jersey being buried, whether it is in Arlington 
Cemetery or I go with the parents and I stand there and I watch 
them weep and I see the little kids that they have left behind 
being held, and talking to a fellow at Walter Reed who is 
sightless and 28 years old and his wife was sitting there and I 
tried to talk to them about Danny Inouye and Bob Dole and war 
heroes. I was a soldier. I wasn't a hero. I did my duty. I say 
to this man, things are there that can help you get along and 
we want to help you and he said, ``I may never see my 28-month-
old child again. I want to hold her in my arms. I want to know 
that I am there with her.''
    And when I see that and I hear it and I think of companies 
who do business with our enemy, people who help pump money into 
that terrorist network, and I say, how can we dare to--we ought 
to be ashamed of ourselves, and I am going to do whatever I can 
to close that loophole. Thank you all very much.
    Senator Coburn. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Director Woolsey, I am on the Armed Services Committee and 
I agree with you, there are areas where we are certainly 
militarily deficient. Your bulls-eye, just on my quick 
notations here, involves about a $600 billion a year increase 
in our military spending, which you propose--and you deserve 
the platinum medal for political courage in Washington to fund 
it with a tax increase. I wonder, seriously, what areas you 
would look to expand as priorities.
    Mr. Woolsey. Senator, I wasn't necessarily saying we should 
go to a $1.1 trillion defense budget. I was just saying that 
was what the Kennedy Administration had, in GDP terms. I think 
one might be able to get by with less of an increase than that, 
but I do think----
    Senator Dayton. I won't accuse you of calling for a tax 
increase----
    Mr. Woolsey. Well, I am perfectly happy to call for a tax 
increase. I don't have to get an election certificate to have 
my job as a consultant, so----
    Senator Dayton. That is an advantage you have.
    Mr. Woolsey. But I do believe that a substantial increase 
in our military forces is necessary. There are some things with 
respect to Nation building and the like which one can do with 
civilian agencies. But as I think the situation in Iraq has 
shown--and I saw this up close when I was over there in 
February 2004--it would be better if we had a lot more civil 
affairs people directly in our military, the ability 
immediately to have construction work begin, to have the 
military paying people while they are protecting them. All of 
that capability was pulled out of the active forces and put 
into the reserves--and it is very thin even there--a few years 
ago.
    I think our active forces need those kinds of capabilities. 
I think we need enough of a Navy and Air Force to be able to 
deal with China. I don't like seeing capable vessels in the 
fleet being put up in mothballs now because we can't afford to 
keep them going. I think we need more divisions in the Army. We 
might have to fight in two places at once and we have a one-war 
Army now. I would also increase the Marines.
    I think something in the order of $100 to $200 billion a 
year more in the defense budget is entirely warranted given the 
circumstances we are in. That would bring us up to around 4 to 
5 percent of GDP, somewhere around half the level of 
proportionate sacrifice that was being made in the Kennedy 
Administration. If that didn't do the job, I would add another 
$100 or $200 billion.
    Senator Dayton. Robert Kennedy said that one of the lessons 
in the aftermath of the Bay of Pigs is that if you want to 
diffuse an international crisis, you have got to put yourself 
in the other guy's shoes. Given the realities in the Middle 
East and the Iranian perception, I assume that Israel has 
nuclear weapons. How are we going to get them to forego them if 
they believe that Israel possesses them? I will give each of 
the three of you a response to that.
    Mr. Woolsey. I don't think the reason the Iranians have a 
nuclear weapon program is because they believe they need to 
deter an attack with nuclear weapons from Israel. I think they 
understand that they cannot simultaneously maintain their 
fanatical regime and support for terrorism and all the rest 
without being able, principally, I think, to deter us from 
using conventional forces against them. And that is one reason 
that they have--or a major reason they have--their nuclear 
weapons program. That and their own regional ambitions in 
places like Azerbaijan and the rest. They want to be able to 
expand to dominate the region and nuclear weapons help them 
very much there. Although they will, for reasons of debate, 
international debate, talk about Israel to the nuclear weapons 
program, I don't believe that is really what is driving them.
    Senator Dayton. Speaker and Senator, I have about 2 
minutes, so I will give a minute apiece here.
    Mr. Gingrich. I think that we have this politically correct 
passion for avoiding the truth about this regime. This is a 
regime which believes that it has a mission to extend its view 
across the planet. It says so in its constitution. Its 
president says so. Its ayatollah says so. Its senior advisors 
say so. They fund Hezbollah probably to the tune of better than 
$100 million a year. They have engaged in active warfare 
against the United States at least since the early 1980s.
    I think it is just like saying about Adolf Hitler, why is 
he so mad with the Czechs and the Poles? I mean, he was mad 
with the Czechs and Poles because they existed. He intended to 
eliminate that problem.
    I think we are dealing with a regime we don't want to be 
honest about. If Israel has had these weapons for a long time, 
they clearly have proven they have not attacked anybody with 
their nuclear weapons. I think it is impossible for anyone to 
have the same sense of security about what would happen with 
the current Iranian dictatorship.
    Senator Dayton. Senator D'Amato.
    Senator D'Amato. I think in that case, the Congressman and 
Mr. Woolsey are absolutely correct. Israel does not present the 
threat to the Iranians. That is not why they are looking to 
build the bomb. It is for all the other reasons that people 
have indicated, their hatred of Anglo-Saxons, their hatred of 
the state of Israel, their view that they will prevail and have 
the jihad. This is what motivates them. This is what drives 
them.
    So the one is no excuse, does not give them any moral 
leverage to say that Israel should be without. You have to look 
at the facts as they are. And we simply do not want to, and I 
agree with the Congressman, we don't want to really recognize--
I don't think the political climate and the courage is here, 
given whole lots of factors, given Iraq, the situation, people 
don't even want to hear about it, let alone those who have to 
run for political office to say, hey, you better look at this. 
You better look at this and North Korea and rogue nations and 
come up with a policy of constrictive containment.
    Senator Dayton. Thank you, Mr. Chairman.
    Senator Coburn. Thank you.
    Senator Dayton. I appreciate our witnesses' candor and the 
excellent discussion. Thank you.
    Senator Coburn. I want to make sure everybody understands 
that--several have addressed the chair in terms of having this 
hearing. The real purpose and drive behind this hearing was 
Senator Carper, and he deserves the credit for it because it is 
an issue and he is a co-partner with me on this Subcommittee 
and I want to recognize him and thank him for that.
    I will be sending each of you two written questions, one on 
what impact would premature withdrawal from Iraq have in terms 
of our relationship with Iran? How do we influence Russia in 
terms of the player that we need them to be?
    Now we will proceed with the next panel of witnesses. I 
want to thank you each for coming to testify and appreciate you 
being here. I am sorry that we are running over.
    Senator Dayton. Mr. Chairman, I am not going to object to 
the questions, but the first one on premature withdrawal seems 
to me to be a pretty biased question. I would like to ask the 
opportunity to present another question that would be included 
to them.
    Senator Coburn. Absolutely. Any questions that you would 
like to ask, we will be more than happy to have them answered.
    Senator Dayton. Thank you.
    Senator Coburn. First of all, let me welcome each of you 
and thank you very much.
    Dr. Gary Samore is Vice President for Global Security and 
Sustainability of the John D. and Catherine T. MacArthur 
Foundation. As Vice President, he is responsible for the 
foundation's international grantmaking, currently totaling 
approximately $75 million annually. The international program 
provides grants in the fields of international peace, security, 
human rights, international justice, the environment, and 
population. Headquartered in Chicago, the foundation has 
offices in Mexico, India, Nigeria, Russia, and supports work in 
85 countries.
    Ray Takeyh is a Senior Fellow for Middle East Studies at 
the Council on Foreign Relations. His areas of specialization 
are Iran, political reform in the Middle East, and Islamist 
movements and parties. He is also contributing editor of the 
National Interest. Mr. Takeyh was previously Professor of 
National Security Studies at the National War College, 
Professor and Director of Studies at the Near East and 
Southeast Asia Center, a National Defense University Fellow in 
International Security Studies at Yale University, a fellow at 
the Washington Institute for Near East Policy, and a fellow at 
the Center for Middle Eastern Studies at the University of 
California-Berkeley.
    Ilan Berman is Vice President for Policy of the Washington-
based American Foreign Policy Council. He is an expert on 
security in the Middle East, Central Asia, and the Russian 
Federation. He has consulted for both U.S. CIA and the U.S. 
Department of Defense and provided assistance on foreign policy 
and national security issues to a range of governmental 
agencies and Congressional offices. Mr. Berman is Adjunct 
Professor for International Law and Global Security at the 
National Defense University in Washington, DC. He serves as a 
member of the reconstituted Committee on the Present Danger and 
is editor of the Journal of International Security Affairs. He 
is author of ``Tehean Rising: Iran's Challenge to the United 
States,'' published in 2005.
    I welcome each of you. Dr. Samore.

  TESTIMONY OF GARY S. SAMORE,\1\ VICE PRESIDENT, PROGRAM ON 
 GLOBAL SECURITY AND SUSTAINABILITY, JOHN D. AND CATHERINE T. 
                      MACARTHUR FOUNDATION

    Mr. Samore. Thank you very much, Mr. Chairman, for giving 
me this opportunity to discuss the challenge of Iran's nuclear 
program with the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Samore appears in the Appendix on 
page 88.
---------------------------------------------------------------------------
    I would like to very briefly discuss the main technical 
conclusions of the study that you discussed that was put out by 
the London-based International Institute of Strategic Studies 
in September and then I will focus most of my remarks on the 
diplomatic state of play concerning efforts to try to prevent 
Iran from acquiring a nuclear weapons capability.
    First, from a technical standpoint, the study by the 
International Institute of Strategic Studies concludes that 
Iran still faces a number of technical hurdles before it can 
achieve a nuclear weapons capability in terms of its capability 
to produce sufficient fissile material for nuclear weapons. So 
we conclude that even if Iran tried to go for a nuclear weapon 
as quickly as possible by lifting all political constraints, we 
estimate that it would still take several years, perhaps a 
minimum of 5 years, before Iran could produce enough weapons-
grade uranium for a single bomb. This estimate represents the 
time required to complete and then operate a pilot scale 
centrifuge plan long enough to produce 20 to 25 kilograms of 
weapons-grade uranium, which is enough for a simple implosion 
device.
    Over a much longer period of time, over a decade, it would 
be possible for the Iranians to complete industrial-scale 
enrichment facilities or facilities to produce and separate 
large quantities of plutonium, which would make it possible for 
the Iranians to have a much larger nuclear weapons program.
    None of these technical barriers are fatal, but they create 
space and time for international efforts to try to deny Iran 
from acquiring a nuclear weapons capability.
    Unfortunately, the effectiveness of diplomatic efforts over 
the past 2\1/2\ years, since Iran's secret nuclear program was 
first publicly revealed, have been very mixed. On one hand, to 
avoid referral to the U.N. Security Council, which the Iranians 
fear could lead to political isolation, economic sanctions, and 
even military attack, Teheran has been compelled to cooperate 
with investigations by the International Atomic Energy Agency 
into its nuclear secrets and to suspend some key elements of 
its enrichment activity since October 2003.
    On the other hand, the Iranians have adamantly rejected all 
diplomatic efforts to permanently cease its fuel cycle program 
in exchange for assistance to its nuclear power program and 
other economic and political inducements offered by European 
negotiators. In the same way, I think it is very unlikely that 
Iran would accept the current Russian proposal for partial 
ownership of an enrichment facility on Russian soil in return 
for limiting its indigenous fuel cycle program just to 
conversion activities. So whether or not Mohammed ElBaradei, 
the head of the IAEA, goes to Teheran prior to the next meeting 
of the IAEA Board of Governors in November, I think it is very 
unlikely we will see a diplomatic solution.
    In other words, Iran has made tactical concessions under 
pressure, under threats, to accept limits or some delays in its 
nuclear fuel cycle program, but it hasn't been willing to 
abandon the program altogether at any price, and I think that 
reflects a deeply held and longstanding conviction among all 
major elements of Iran's leadership that Iran needs to acquire 
a nuclear weapons option, although there may be different views 
on the wisdom of actually building nuclear weapons.
    So under these circumstances, the immediate diplomatic 
objective is to maintain pressure in order to delay the program 
by keeping the remaining suspension in place and by putting 
pressure on Iran to continue to cooperate with the IAEA.
    In this respect, Teheran calculates that the balance of 
power is shifting in its direction, which, therefore, reduces 
the risk of referral to the Security Council. From the 
standpoint of Teheran, the tight oil and gas market affords 
protection against the risk of economic sanctions, as the 
previous panel discussed, and the U.S. entanglement inside Iraq 
provides temporary protection against the risk of U.S. military 
attack.
    Nonetheless, Teheran has acted very cautiously. In August, 
the Iranians resumed operations at the Esfahan uranium 
conversion facility to convert yellow cake into US6, feed 
material for enrichment, but they have maintained the 
suspension on the manufacture, the installation, the operation 
of centrifuge machines at their enrichment plant that is under 
construction.
    Furthermore, the Iranians have continued to dribble out 
some enhanced cooperation with the IAEA, most recently allowing 
additional access to a military testing facility where it is 
thought Iran may have been conducting some weaponization 
experiments.
    Using these salami tactics, Teheran has successfully 
defeated the efforts of the U.S. and European powers at the 
IAEA Board of Governors to refer Iran to the U.N. Security 
Council, and I suspect that pattern will continue at the next 
meeting in 2 weeks.
    The near-term danger, it seems to me, Mr. Chairman, is that 
Iran will calculate that it has a window of opportunity while 
the United States is weak and while the international community 
is divided to advance its nuclear program further by lifting 
the suspension on some of its enrichment activities while it 
continues to cooperate with IAEA inspections. The challenge for 
us is to mobilize strong support for enrichment as a red line, 
even though we have failed to enforce conversion as a trigger 
for referral.
    The key here in terms of drawing a new red line is Russia 
and China. Certainly, both Moscow and Beijing share our view 
that Iran is seeking to develop a nuclear weapons capability, 
and as I understand it, they have privately warned Iran through 
diplomatic channels not to resume enrichment. But it is less 
clear that Moscow and Beijing are prepared to support referral 
to the Security Council if Iran resumes its enrichment program 
or that they would support any serious international pressure 
on Iran in the event that referral takes place.
    Basically, Russia and China don't want to be dragged into a 
confrontation over Iran's nuclear program, which would 
jeopardize their relations with Iran on one hand and their 
overall relations with the U.S. and European powers on the 
other.
    Therefore, it seems to me, in the near term, we need to 
convince Moscow and Beijing the best way to avoid a crisis is 
to convince Iran not to aggravate the situation by resuming 
enrichment activities, and that requires a strong private 
warning from Russia and China to Iran not to take that step, 
and I certainly hope President Bush makes that point in his 
meetings in the next few days with President Putin and 
President Hu from China.
    If Iran is confronted with such a threat by the big powers, 
it may decide that it has no choice but to keep the suspension 
in place for the time being, and that could create some 
conditions for eventually resuming formal negotiations.
    Thank you, Mr. Chairman. I look forward to responding to 
the Subcommittee's questions and comments.
    Senator Coburn. Thank you. Mr. Takeyh, thank you very much. 
I have read your testimony and your entire testimony will be 
made a part of the record.

TESTIMONY OF RAY TAKEYH,\1\ SENIOR FELLOW, MIDDLE EAST STUDIES, 
                  COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you. After, I suppose it is 26 years now, 
it is not unusual that the complexion of the Iranian regime is 
changing. As was mentioned, a new generation of conservatives 
is beginning to come to power with its own distinct views and 
ideologies. Ahmadinejad's presidential triumph actually 
concludes a cycle of resurgence of the right in Iran that has 
now captured all the relevant elected institutions. With this 
new generation of hardliners, it is their war with Iraq and not 
so much the revolution that is their defining experience. Their 
isolation of the United States, their suspicion of the 
international community, and their continued attachment to some 
basic tenets of the revolution tends to define their ideology.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Takeyh appears in the Appendix on 
page 93.
---------------------------------------------------------------------------
    The new generation of Iranian conservatives are unyielding 
in their ideological commitments. They are persistent in their 
notion that the government of God has relevance, and they are 
rather simplistic in their understanding that all of Iran's 
problems could somehow be resolved if only you go back to the 
roots of the revolution, whatever that is.
    Despite the conservative jubilation, their political 
hegemony may prove short-lived. Their conservative government 
was elected on a rather daunting mandate of relieving Iran's 
economic difficulties. It is unlikely, given their intellectual 
poverty, given their corruption, attachment to anachronistic 
policies that this government can tackle Iran's significant 
political and economic troubles.
    There are some signs that the clerical regime is 
rebalancing itself and seeking to restrain its new impetuous 
president. President Ahmadinejad's inexperience, ideological 
stridency has already cost Iran dearly. His uncompromising and 
provocative speech in the U.N. September meeting was largely 
responsible for crafting an international coalition within the 
IAEA for potential referral of Iran to the Security Council. 
And, of course, his speech regarding wiping Israel off the map 
was also greeted with international condemnation by leading 
powers and international institutions.
    On the domestic front, Ahmadinejad's cabinet choices, with 
their marked incompetence and inexperience, have received a 
poor reception even from a friendly hardline parliament that 
has refused to confirm a number of his candidates. As we sit 
here today, I don't believe Iran still has an oil minister, a 
rather critical portfolio for a country that is so energy 
dependent.
    Given this record of inaccomplishment in a rather brief 
tenure, in a rather unprecedented move, the Supreme Leader of 
Iran has empowered the Expediency Council and Mr. Rafsanjani to 
supervise the workings of the government. How this will evolve 
in practice is hard to tell, but it seems to be an attempt, a 
rather subtle one, to restrain Mr. Ahmadinejad, check his 
excesses, and impose limits on his rather provocative 
ideological vision.
    Iran today is what it has been, I suspect, for the past 27 
years, a Nation in search of an identity. It oscillates between 
sort of the promises of democratic modernity and retrogressive 
tradition. Iran will change. However, Iran's democratic 
transition must come on its own terms and its own pace. The 
castigation of Iran, denigration of its political process, only 
provides ammunition to hardliners decrying Iran's democrats and 
reformers as unwitting agents of Western machination. Contrary 
to depictions, the struggle in Iran is not a simple conflict 
between the people and the mullahs. Iran's factional politics, 
ideological divisions, political rivalries are much more 
complex and nuanced. The dissident clerics within the 
seminaries, the young functionaries within the state, the 
student organizations defying the authorities, and Iranian 
women who persistently challenge religious strictures all are 
part of a movement seeking to liberalize the parameters of the 
state. The stark division between the people and the regime 
quickly fades when one considers how decentralized and flexible 
Iran's governing order has become in the intervening 30 years.
    What is to be done is the question that is often posed, 
nearly impossible to answer. At the outset, it must be 
appreciated that the notion of a regime change is more of a 
slogan than a policy. The United States does have an important 
stake in Iran's internal struggles. As I mentioned, Iran will 
change. However, this is not a change that can be imposed, 
manipulated, accelerated from abroad. The best manner of 
impacting Iran's internal struggles is to reconnect the 
American and Iranian societies. Cultural exchanges, academic 
scholarships, trade, relaxed visa policies can yield a great 
degree of interaction between two societies that have been long 
estranged from another and effectively erode the foundations of 
the theocratic regime.
    Beyond that, the United States would be wise to relax its 
rhetoric. For too long, we have relied on the hard stick of 
coercion. It is perhaps time to consider overwhelming Iran with 
America's more compelling soft power. By integrating Iran in 
the global economy and the global society, the United States 
can generate internal pressures for transparency, 
decentralization that will press Iran toward a more responsible 
international conduct. Through a multilateral and multifaceted 
approach, the United States can best deter Iran's provocative 
policies in the short term and cultivate a democratic 
transition in the long run. I will stop right there.
    Senator Coburn. Thank you very much. Mr. Berman.

    TESTIMONY OF ILAN BERMAN,\1\ VICE PRESIDENT FOR POLICY, 
                AMERICAN FOREIGN POLICY COUNCIL

    Mr. Berman. Thank you very much, Mr. Chairman. Let me ask 
also at the outset, like my colleagues, that my written 
testimony be entered into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berman appears in the Appendix on 
page 99.
---------------------------------------------------------------------------
    Senator Coburn. All written testimonies will be placed in 
the record, without objection.
    Mr. Berman. Thank you, sir. And also, I would like to say 
that my oral remarks are intended as an elaboration of several 
of the points in my written testimony, primarily four points. 
First, what we know about Iran's nuclear ambitions. Second, 
what the international response has been so far. Third, the 
flaws in that response. And fourth, some proposals about what 
the United States can do.
    First, all of the indications suggest that Iran's nuclear 
program is far more than simply an effort to develop civilian 
nuclear energy. You have many concealed sites. You have work on 
both uranium enrichment and plutonium conversion. You have a 
pattern of consistent diplomatic obfuscation vis-a-vis the 
International Atomic Energy Agency. And most importantly, 
because of the ideological connotations, the nuclear program, 
as well as Iran's chemical and biological weapons program and 
its strategic arsenal of ballistic missiles, is firmly in the 
control of the clerical army, the Pasdaran, which were created 
by the Ayatollah Khomeini as the shock troops of the Islamic 
revolution.
    Also, in the public discourse, there have been a lot of 
discussions about reasons why Iran is not simply seeking 
civilian nuclear energy. Let me propose one more. Iran is a 
major oil exporter. It exports approximately 2.5 million 
barrels per day, 60 percent of its total output. But according 
to the U.S. Department of Energy, last year, it imported 
between two and three billion U.S. dollars' worth of refined 
gasoline. If Iran was truly interested in rapidly filling 
domestic energy needs, it could easily build new refineries. 
After all, they cost much less than nuclear reactors. The fact 
that it is not doing so is very telling.
    The international response to Iran's nuclear ambitions has 
been woefully inadequate thus far. Since mid-2003, our 
principal vehicle of engagement has been the EU3 negotiations, 
which are aimed at securing a lasting Iranian freeze on uranium 
enrichment in exchange for economic and political incentives. 
Since February of this year, the Bush Administration has thrown 
its weight behind this diplomatic process, despite the fact 
that the President has previously reiterated that he ``will not 
tolerate a nuclear Iran.''
    The flaws with this process are manyfold. First of all, it 
is quite clear that the United States and its allies across the 
Atlantic have incompatible goals. The Bush Administration has 
made clear that it will not tolerate a nuclear Iran, but some 
European officials have endorsed at least a degree of atomic 
capability. In fact, a European Union proposal submitted in the 
spring of this year actually offers a certain level of nuclear 
capability to the Islamic Republic. That offer was rejected, 
but the offer was on the table.
    Also, it is not at all clear that the United States and our 
allies in Europe can actually reach a durable consensus about 
exactly which degree of nuclear capability is acceptable for 
the Islamic Republic to have. We certainly have a stricter 
interpretation of the type of nonproliferation activities that 
we should be pursuing towards Iran than France and Germany do, 
for example.
    Second, we have a problem regarding expectations. We should 
have very low expectations for this process. Europe's current 
diplomatic approach is not a new effort. During the mid-1990s, 
the EU attempted very much the same thing. It attempted to 
influence Teheran's stands on weapons of mass destruction, on 
terrorism, on human rights, and on the Israeli-Palestinian 
confrontation through a series of political and economic 
inducements. That process was called ``critical dialogue.'' 
``Critical dialogue'' fizzled in the middle of 1997, but the 
harm had already been done. It had been an economic and 
political boon to the Islamic Republic. It had reconnected Iran 
with a number of important trading and political partners in 
Europe. And the rest, as they say, is history.
    There is every reason to suspect that the current round of 
negotiations, as we are seeing already, will fail as well, all 
of the current indications suggest that the goal of the Islamic 
Republic is not to allow an indefinite freeze on its nuclear 
progress.
    There is also a question regarding timing. Until quite 
recently, Washington and Europe were very far apart in their 
conceptions about when Iran would actually go nuclear. In this 
context, a new national intelligence estimate that Senator 
Collins mentioned earlier, which estimated that Iran would have 
a nuclear capability in 10 years, can be and should be seen as 
a political move by the intelligence community to endorse the 
European negotiating track.
    Candidly, I would say that this approach is foolish at 
best, and it is dangerous, at worst, for the simple reason that 
there are many of what Secretary Rumsfeld calls ``unknown 
unknowns.'' The national intelligence estimate makes no mention 
of Iranian clandestine acquisition efforts on the nuclear black 
market that exists in the former Soviet Union. It makes no 
mention of its clandestine interaction with cartels, such as 
that of A.Q. Khan, the Pakistani nuclear scientist, which still 
exists in one form or another. And as a result, the types of 
projections that we receive from this national intelligence 
estimate are, frankly, a bit detached from reality.
    Finally, and I think this is a crucial point, the 
diplomatic track has no credible end game. Even if the 
International Atomic Energy Agency votes next week to refer the 
Iranian nuclear file to the U.N. Security Council, the most 
likely result is going to be diplomatic deadlock. It is going 
to be diplomatic deadlock because two of the Security Council's 
permanent members, Russia and China, have been central to the 
development and evolution of the Iranian nuclear program over 
the past decade and a half. This track record of cooperation 
means that any application of sanctions, let alone anything 
more forceful, by the United Nations is highly unlikely and 
actually might look every bit as tense diplomatically as the 
run up to the Iraq war did.
    This has substantial implications for U.S. strategy. The 
fundamental problem that we are facing is that Iran's nuclear 
clock, the clock that is ticking down to when Iran has some 
level of nuclear capability, is ticking much faster than its 
regime change clock, the clock that is ticking down until a 
fundamental transformation of the regime from within. Altering 
that equation, and making the nuclear clock tick slower and the 
regime clock tick faster, should be, in my estimation, the 
starting point for any serious American strategy.
    The United States can do so. It can delay Iran's nuclear 
ambitions and mitigate their impact on the Middle East through 
a series of measures, including international cooperation, 
aggressive counterproliferation, and even Gulf defense. What it 
can't do, however, is change Iran's desire for the bomb, and 
this is what makes the issue of regime character paramount.
    The radical regime in Iran is the world's leading state 
sponsor of terrorism. It is also actively proliferating 
catastrophic technologies to groups like Hezbollah in Lebanon. 
This means that it is foolish to assume that Iran is going to 
be a mature nuclear possessor. As a result, the United States 
must do more than simply deter and contain Iran. It has to also 
focus its energies upon the means by which it can spur a 
fundamental transformation of that regime. Thank you.
    Senator Coburn. Thank you very much.
    First of all, Dr. Samore, what would happen if Iran had 
fissile material now, in your estimate?
    Mr. Samore. You mean if they suddenly were able to acquire 
sufficient quantities of fissile material from North Korea or 
the black market or something?
    Senator Coburn. Yes.
    Mr. Samore. Well, that would drastically reduce the amount 
of time it would take for the Iranians to be able to build 
nuclear weapons. Now, it is very difficult, I think, to give 
you an accurate estimate of how much time it would take because 
at least in terms of the information that is publicly 
available, we really don't know very much about Iran's 
weaponization activities, and so as a consequence, I can't tell 
you whether it is 6 months or 1 year or 2 years or 3 years. We 
just don't know about their weaponization----
    Senator Coburn. But it would certainly advance it?
    Mr. Samore. It would certainly advance it significantly. 
The most important constraint on their ability to build nuclear 
weapons right now is that they can't produce adequate amounts 
of fissile material. If you suddenly made that available, it 
would dramatically really remove that most significant 
technical hurdle.
    Senator Coburn. Iran has made tactical concessions, but 
really no real change in agenda, just a lengthening out in 
terms of their plans, actually delay getting caught at what we 
actually know, I believe, is going on, in terms of what we have 
seen. What should be our approach?
    Mr. Samore. Well, as I suggested, I don't see a diplomatic 
deal under current circumstances that would convince the 
Iranians to permanently give up their ambition to develop a 
nuclear weapons option. Therefore, I think the best you can do 
diplomatically is use the threat of referral to the Security 
Council in order to stop some of the key elements of the 
program. And as I suggested since October 2003, that approach 
has had some success in stopping the Iranians from at least 
proceeding with their enrichment program.
    So as I look at this issue in terms of the art of the 
possible, I think you have got to focus on making the threat of 
referral to the Security Council as credible as possible in 
order to convince the Iranians not to proceed with those 
sensitive elements of the program, and as Ray Takeyh has 
discussed, I think that the missteps of President Ahmadinejad 
has tremendously helped us because it has made Teheran much 
more nervous about international political isolation, and as a 
consequence, I think our ability to pressure the Iranians to 
continue to be cautious has been actually helped quite a bit by 
President Ahmadinejad.
    Senator Coburn. Thank you. Mr. Takeyh, I really had a good 
time reading your statement. There were a lot of things brought 
up in your statement that I hadn't quite honestly thought 
about. A couple of questions that I have for you.
    What are the threats that if you were to sit down and teach 
me tomorrow in the mind of the Iranians, what are the threats 
that they see that they face? I think to understand this, we 
have got to understand where they are in their mindset.
    Mr. Takeyh. In terms of the strategic threats, since 
September 11, the strategic situation of Iran has been sort of 
paradoxical. On the one hand, through United States policy, two 
of Iran's enemies, in Afghanistan and Iraq, have been removed 
from power, so objectively, Iran's security has improved.
    Yet at the same time, there has been sort of a massive 
projection of American power on all of Iran's periphery and 
this projection of power has come with a rather provocative 
American doctrine that has suggested preemption as a tool of 
disarmament, regime change as an avenue of disarmament, so that 
their sense of insecurity has been intensified and that has 
made the option of nuclear deterrence even more viable.
    The other lessons that Iranians have drawn from Operation 
Iraqi Freedom is that mere possession of chemical and 
biological weapons do not constitute a necessary deterrent to 
possible American intervention. I mean, that was the lesson of 
Iraq, namely, even when the United States contemplated that 
Iraq possessed weapons of mass destruction, it was nevertheless 
not deterred by that and it went in.
    So, therefore, the lesson of the Operation Iraqi Freedom is 
the only way the United States can potentially be deterred is 
through the possession of the strategic weapon, and that lesson 
has been even more dramatically reinforced by developments in 
the Korean peninsula, namely that once you do have at least the 
perception of nuclear weapons or perception of that capability, 
that not only obviates possibility of coercive regime change, 
but that invites potential security and economic concessions. 
So almost everything that has happened during the past 3 years 
has made the nuclear weapons option a more strategic 
tantalizing and appealing one.
    Senator Coburn. But the threat is us?
    Mr. Takeyh. Primarily threat. There are a number of 
threats. The primary threat today as far as the Iranians are 
concerned most likely is the United States. There are a series 
of secondary threats--the stability of Pakistan and potential 
collapse of Pakistan to a Sunni radical regime with hostility 
to a Shiite Iran, potentially what type of Iraq emerges next 
door. Is it going to be a strong, cohesive state, maybe even 
behaving as an adjunct of American power in the Gulf, or is it 
going to be a weak, decentralized state with the possibility of 
civil war seeping over? This is the unpredictable nature of 
Iraq. And what type of a security architecture emerges in the 
Persian Gulf, which still constitutes Iran's most suitable link 
to the international petroleum market, the lifeblood of its 
economy.
    So there is a series of long-term and short-term threats 
that condition Iran's strategic approach and condition its 
defense priorities.
    Senator Coburn. Thank you very much.
    Senator Carper. Gentlemen, thank you all for being with us 
today and for your testimony.
    Let me just ask of Mr. Takeyh, you and I have talked 
before. Do I understand that your family is from Iran?
    Mr. Takeyh. Yes.
    Senator Carper. Were you born there?
    Mr. Takeyh. Yes.
    Senator Carper. OK. Do you ever go back for any visits?
    Mr. Takeyh. Teheran, spring of 1979.
    Senator Carper. Nineteen seventy-nine, that was the last 
time you were there? And Dr. Samore?
    Mr. Samore. Yes, I was there in March. It was quite an 
interesting trip. March of this year.
    Senator Carper. Mr. Berman.
    Mr. Berman. No, sir.
    Senator Carper. Dr. Samore, talk to us a little bit about 
how people responded to you or to other Americans with whom you 
were traveling.
    Mr. Samore. Well, one of the fascinating things about Iran 
is that Americans are very popular. It is very unlike traveling 
throughout the Arab world, where, of course, people are 
hospitable because that is their custom, but you know that they 
are not really very happy with Americans. Because from the 
standpoint of many ordinary people in Iran, they see the United 
States as standing for democracy and freedom and social 
freedom, which is the main grievance, I think, against the 
regime. You find when you talk to young people that they feel 
that their personal freedom and economic opportunities are not 
faring very well. Now, that doesn't mean they are ready for 
revolution. It is just that is their complaint against the 
mullahs.
    Senator Carper. How do you explain, how do we explain a 
radical mayor of Teheran taking out in a presidential election 
Rafsanjani, who has been there forever?
    Mr. Samore. Well, I think that was Rafsanjani's problem. I 
mean, he was seen as very much a representative of corrupt 
order that had failed to solve these kinds of problems and 
Ahmadinejad ran on really a populist ticket that he would deal 
with issues of social injustice and economic unfairness. But 
Ray might be in a better position to address that.
    Senator Carper. Mr. Takeyh.
    Mr. Takeyh. I think it was a powerful appeal of the notion 
of economic justice, the notion of anti-corruption, the idea of 
the powerful and the powerless, and he managed to appeal to 
that particular instinct. At the time of economic hardship and 
economic difficulty for the average Iranian, he manages to 
essentially have a very populist appeal at that time.
    I think some of that has evaporated, given the fact that 
his economic program is rather discursive, but it was 
essentially a very populist campaign where he essentially ran 
against the establishment, an establishment that was detached, 
that was indifferent, and in many cases corrupt.
    Mr. Samore. Just to make one other point, Senator, I think 
it is important to recognize that Ahmadinejad is seen as a 
minor player in foreign and defense policy. I mean, the key 
players on the nuclear issue and on broader foreign and defense 
policy is really the Supreme Leader and also the head of the 
Expediency Council, Rafsanjani. So I think that even though 
Ahmadinejad may say very provocative things, which isolates 
Iran, he is not really the one who is making the key decisions 
on the nuclear program.
    Senator Carper. Who appoints the head of the Expediency 
Council?
    Mr. Samore. Well, the Supreme Leader.
    Senator Carper. All right. So the guy who heads up the 
Expediency Council, appointed by the Supreme Leader, was just 
defeated in a presidential election by the old mayor of 
Teheran.
    Mr. Samore. Well, I mean, Ray is the expert, but what I 
have learned about looking at Iranian politics is that they are 
incredibly complicated and subtle and that you had many 
different competing forces and personalities and it is all a 
balance that is very difficult, I think, for outsiders to fully 
appreciate.
    Keep in mind, these people have known each other for years 
and years. I mean, after the founder of the revolution died in 
1989, the country was ruled by the Supreme Leader Khamenei and 
by President Rafsanjani. So they have been partners in sharing 
power since 1989.
    Senator Carper. In this country, we think of the President 
and we think of a strong chief executive, the commander in 
chief, the head of the Executive Branch of our government who 
holds sway in a lot of ways. But I gather that is not the case 
in Iran?
    Mr. Takeyh. There is a--it is a peculiar constitutional 
structure. In a sense, there are elected institutions, the 
parliament and the office of the presidency, but they are 
rather subordinate to unelected institutions, which are first 
and foremost, of course, the Office of the Supreme Leader, 
which tends of oversee all national affairs, the Council of 
Guardians that vets legislation and suitability of candidates 
for public office, and the Office of Expediency Council, whose 
job it is to mediate differences between the presidency and the 
parliament should there be a deadlock between them. And the way 
policy is made, it is an informal interaction between all these 
institutions and all these individuals.
    I want to say that Ahmadinejad is not an irrelevant player 
in Iran's foreign policy deliberation. He has a seat at the 
table. But he is not the predominant player. He certainly has 
an influential voice. He has an influential power base within 
the Revolution Guard and the judiciary and so forth. But he is 
an actor within a larger drama.
    Senator Carper. Who makes, or what group of folks over 
there make the decision as to whether or not to acquiesce and 
to find common ground with the Europeans and us in this 
negotiation?
    Mr. Takeyh. The nuclear decisions are made within the 
context of the Supreme National Security Council, which has all 
the relevant members within it. There is a separate committee 
that actually deals with this issue on a day-to-day basis and 
it has five members in it. It is the Minister of Defense, the 
Minister of Intelligence, Ali Larijani, who is the head of the 
Supreme Council, head of the National Security Council. It is 
the representative of the president and also members of the 
military and the Revolutionary Guard. They tend to deal with 
this issue on an operational level and make their 
recommendations to the larger Supreme National Security 
Council, which ultimately comes to a decision on whether Iran 
should accept or defer any sort of an arrangement with the 
Europeans, IAEA, what have you.
    Senator Carper. Going back to my earlier question, it 
sounds like this new president was elected, at least in part on 
the issues of economic justice and appealing to the electorate. 
My sense is that a lot of people who are maybe more the 
moderates or the reformers within the country stayed home and 
didn't vote because a lot of the folks they would like to have 
supported for parliamentary positions were not allowed to run.
    I am trying to figure out, and help me with this, I am 
trying to figure out what kind of incentives are the real power 
brokers in this country likely to respond to, or what kind of 
pressures are they likely to respond to?
    Mr. Takeyh. Well, as far as Ahmadinejad is concerned, there 
is not a whole lot of either incentives or pressures that is 
going to have a meaningful impact on him. I mean, he is rather 
dubious of international investment and he is indifferent to 
threats of coercion and sanctions and so forth and obviously 
incredulous to any sort of American military sanction, given 
the problems next door.
    But as a whole, I mean, this is a system, this is a 
government that comes to decision on the nuclear issue, and 
before one postulates incentives and so forth, we have to 
understand what sort of a nuclear deal one is looking for, 
whether it is the dispension of the fuel cycle, a permanent 
one, a durable one, what have you. But it is important to look 
at Iran within a long history of proliferation.
    This is not the first time the international community has 
met a challenge of proliferation. In the past, many states--
Argentina, Brazil, South Africa--have toyed with the idea of 
having nuclear weapons as a means of dealing with their 
security concerns. In all these cases, there was ultimately a 
set of factors that led these countries to step back from the 
nuclear precipice. First, it was a lesson, external danger. I 
mean, in a sense, the strategic environment that they existed 
in changed.
    Second of all, it was always a combination of inducements, 
economic rewards, access to international lending institutions, 
preferential trade arrangements, essentially a sort of a 
counterbalancing set of incentives that led them to deter from 
pursuing nuclear weapons. I understand every country is 
different and has to be viewed within the context of its own 
national narrative, but I can't think of a country that has 
disbanded nuclear weapons capability or has disavowed those 
intentions on the threat of economic strangulation or military 
reprisal.
    Decades of sanctions against Pakistan ultimately did not 
deter the Pakistanis from actually detonating the bomb. You can 
say similar things about India. And ultimately, what we know 
about China in the 1960s, it was its perceptions of danger and 
its perception of inevitability of conflict with the United 
States that led it to actually develop its own indigenous 
nuclear capability.
    So the combination of incentives and penalties, big sticks 
and big carrots, ultimately is the only diplomatic approach to 
dissuading a country from pursuing nuclear weapons, and I 
suspect that is true even in the case of Iran.
    Mr. Samore. Although I would just want to add that in the 
talks so far with the EU3, the Iranians have not suggested that 
some set of incentives or inducements would be sufficient to 
convince them to give up their efforts to develop a fuel cycle 
program. Their position has been that under no conditions, not 
at any price, will we agree to permanently give up our 
enrichment program.
    Now, Mr. Takeyh may be right that at some point, the 
Iranian leadership will decide that they will see what they can 
get in exchange for trading this program away, especially if it 
looks like the risks of proceeding with it are so great that 
they don't have any choice. But certainly the record of the 
negotiations so far does not suggest that there is a deal out 
there: If only we make the carrots look a little bit more 
attractive, the Iranians will give up their program.
    Unfortunately, this program has a very deep history. It 
goes back at least 20 years under the revolution, and in fact, 
if you look at the Shah's nuclear program in the 1970s, it 
looks amazingly like the program now. So I suspect that this is 
something pretty deeply rooted in the Iranian sense of what 
their national destiny is and their national needs are.
    Senator Carper. All right. Thank you very much.
    Senator Coburn. Senator Dayton.
    Senator Dayton. Briefly, gentlemen, because my time is 
limited, would you say that Ahmadinejad won a democratic 
election?
    Mr. Takeyh. I think there were two elections that took 
place. The first one is the election that had all the members 
and he came in second in that particular election, I think with 
19 percent of the vote, in order to make it to the second 
round. The top two candidates made it. He and Rafsanjani made 
it. I think in the first election, there were ample 
irregularities and he was unlikely to have that position in a 
sort of a clear voting and a pristine election.
    Then comes the second election, where he is in a run-off 
with former President Rafsanjani and he wins by 63 percent of 
the vote. I think that was actually legitimate, in the sense 
that I don't believe that Mr. Rafsanjani, which has so 
intimately involved with Iranian corruption, could have won any 
sort of a--he has no electoral----
    Senator Dayton. I need you to be brief, I am sorry, because 
I am short of time. Mr. Berman, do you want to answer?
    Mr. Berman. Senator Dayton, let me just say the following. 
I think we tend to view the Iranian elections incorrectly. Dr. 
Takeyh just talked about two elections. In fact, there were 
actually three selections that took place. There was a 
selection that took place earlier in the spring in which the 
political vetting authority for the Islamic Republic excluded 
more than 1,000 potential presidential candidates. The slate 
that was left was a slate of eight and it spanned the political 
spectrum. There were reformists, there were conservatives, 
there were hardliners, there were people like Mr. Ahmadinejad, 
who were former Pasdaran officials.
    But the common thread uniting all of them was the fact that 
the Supreme Leadership of the Islamic Republic was comfortable 
enough with them. They might talk a different talk, but they 
walk the same walk. And that, I think, informs the rest of the 
political process going forward. It is impossible to talk about 
Iran in electoral terms the way we talk about the United 
States.
    Senator Dayton. It seems that you are, like the first 
panel, very pessimistic about the prospects for stopping Iran's 
nuclear program short of a regime change or major change of 
mind on their part, which you said is the result of big carrots 
and big sticks which are hard to formulate. Mr. Berman, you 
seem to be of this group the principal advocate for regime 
change, which seems to me only to be achievable by direct 
military intervention by the United States. Do you have a 
strategy or a game plan for regime change, or what does that 
entail?
    Mr. Berman. I think this is obviously the $64,000 question. 
In my book, ``Teheran Rising,'' I propose a two-tier strategy. 
The first track is designed to delay the time when Iran gets a 
nuclear weapon; in essence, to create a window of opportunity. 
You can do that through counterproliferation, through missile 
defense, through all sorts of tactical measures. But that is 
the easy part.
    The hard part becomes what to do with the time that you 
have gained. Here, the essential discourse in the United States 
has to be about what kind of regime you want ultimately to 
wield those weapons. This regime has a checkered past. It is 
the world's leading state sponsor of terrorism. It will not be 
a mature nuclear possessor. Therefore, you have to think about 
regime change, and that opens up the door for discussions about 
things like Speaker Gingrich talked about.
    Broadcasting is one approach. Today, this fiscal year, the 
entire U.S. Government broadcasting effort into Iran is $16.4 
million. That is roughly 21.5 cents per Iranian per year for a 
country of 70 million. You can argue about how much that should 
be increased, but it is quite clear that if our message is not 
getting through, it might be through lack of bandwidth, through 
lack of resources.
    I actually agree with Dr. Takeyh on the idea of cultural 
exchanges. During the Cold War, we had the opportunity through 
third country contacts to cultivate a cadre of leaders like 
Vaclev Havel, like Lech Walesa, that would go back and take the 
American message back to their home countries. We haven't done 
that. We have really abdicated the tools of political warfare 
that we used during the Cold War.
    Senator Dayton. Do either of you care to comment? It seems 
to me that if we want to assure that we are deadly serious 
about stopping proliferation, that it is unlikely that we are 
going to get them to stop proliferation as long as they are 
increasingly fearful that we are going to propose regime 
change. As you said, Mr. Takeyh, where they are concerned, the 
primary concern is about our intervention, which I assume means 
to them a military intervention to bring about regime change. 
Then at the same time, we are talking about better 
interorganizational and personal exchanges. It doesn't seem 
like a consistent or coherent policy.
    Mr. Samore. Well, I think the best you can do with 
diplomacy now is buy time, and I think the most effective tool 
to buy time is the threat of referral to the Security Council. 
And since October 2003, that has been an effective instrument 
which has forced the Iranians to limit their nuclear program.
    So my argument is that, in a tactical sense, what we have 
to do is try to strengthen the credibility of that threat in 
order to buy time. What happens in the long term, whether it is 
possible for the United States to change Iran through either 
soft or hard means or some combination of the two, I don't 
think anybody can be confident of that. But clearly, we want to 
buy time, and the best way to do that----
    Senator Dayton. So if you were going to recommend or 
structure a Senate resolution that was going to have some real 
effect to it, some reality-based teeth to it, would you 
recommend then something along the lines of that kind of urging 
that kind of referral?
    Mr. Samore. Frankly, I think what is much more important 
than what the United States does is what Russia and China does, 
because the Iranians already know that the United States and 
the major European powers are prepared to send them to the 
Security Council if they break the enrichment red line. But 
there is uncertainty or ambiguity about where Moscow and 
Beijing is. So I think this is really much more an 
international issue than anything the United States does, 
either Congress or the Executive Branch.
    Senator Dayton. My time has expired, but it has been an 
excellent panel. I thank all three of you. It has been very 
enlightening. Thank you.
    Senator Coburn. Senator Santorum, thank you very much for 
being here. Your statement will be made a part of the record.

TESTIMONY OF HON. RICK SANTORUM, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Santorum. I appreciate that. I appreciate the 
opportunity to be here to talk to these folks and I appreciate 
your willingness to let a non-member sit on the panel.
    [The prepared statement of Senator Santorum follows:]
                 PREPARED STATEMENT OF SENATOR SANTORUM
    For many years, the Department of State has consistently declared 
the Islamic Republic of Iran the world's leading sponsor of terrorism. 
The Iranian regime created Hezbollah, arguably the most dangerous 
terrorist organization, and it actively supports Hamas and Islamic 
Jihad. The leader of the terrorist insurgency in Iraq, Abu Musab al 
Zarqawi, lived in Teheran while he created a terrorist network that 
ranged from Afghanistan to the capitals of Europe, including Italy and 
Germany.
    In recent weeks, the British Government has blamed Iranian 
terrorists for the killing of several British soldiers in southern 
Iraq. Our own government has repeatedly declared that Iran is deeply 
involved in supporting both Sunni and Shiite terrorists against 
American and other coalition soldiers in both Iraq and Afghanistan. 
Just last Friday, Under Secretary of State Nicholas Burns, in a public 
statement in New Delhi, proclaimed Iran ``a terrorist state.''
    And as we all know, it is a terrorist state intent on acquiring 
nuclear weapons. That thought alone should put Iran at the top of our 
national agenda.
    In short, there is no doubt about Iran's leading role in the terror 
war directed against us and our friends and allies, or about the 
importance of dealing effectively with the Islamic Republic. yet, more 
than four years after the attacks of September 11, 2001, this 
administration still has not defined an Iran policy.
    This is both lamentable and dangerous. Lamentable, because it 
bespeaks a lack of will and coherence on the part of the Executive 
Branch. Dangerous, because we can expect the Iranians and their 
terrorist allies to do everything in their power to kill Americans.
    We must have an Iran policy, and that policy must directly pressure 
the Teheran regime. To that end. I and others in this body have 
introduced legislation. S. 333, the Iran Freedom and Support Act, that 
would put the United States firmly and actively on the side of the vast 
majority of Iranians, those who oppose the repressive terrorist regime 
under which they suffer, and which they desperately want to replace 
with a free and democratically elected government. Additionally, I have 
introduced S. 1737, the Iranian Nuclear Trade Prohibition Act of 2005, 
to prevent U.S. entities from purchasing nuclear fuel assemblies from 
entities that provide these items to Iran.
    It is regrettable that we have not rallied to the side of the 
democratic opposition in Iran. To date, despite numerous fine 
statements from the President and the secretaries of state and defense, 
no real support has been given to the pro-democracy forces in Iran. 
Indeed these fine words, combined with inaction, are a betrayal of the 
Iranian people, because the words lead them to expect that we will act, 
and encourage them to expose themselves to a harsh regime that 
ruthlessly arrests, tortures and murders them.
    I would have preferred to follow the lead of the Executive Branch 
on this matter, but we clearly have an obligation to insist on an 
effective Iran policy. The events in Iraq, Afghanistan, Lebanon and 
Syria have shown that the peoples of the Middle East want freedom and 
are prepared to take great risks, and pay a great and terrible price, 
in order to achieve it. The Iranians have often taken to the streets to 
demonstrate their desire for freedom, and I believe it both wise and 
morally right for us to support them.
    In fact, it would be the right policy for us, even if Iran were not 
the leading supporter of terrorism, and were not actively encouraging 
and enabling the killing of our men and women in Iraq, even as I speak. 
A generation ago, this body gave full support to democratic dissidents 
in the Soviet Empire, from Jewish refuseniks to Polish workers in the 
then largely unknown city of Gdansk. The Jackson-Vanik Act and the 
other measures enacted by the Senate gave hope to men and women who, in 
remarkably short order--and contrary to the confident predictions of 
scores of self-proclaimed experts--brought down a tyrannical regime 
that many believed would rule indefinitely.
    We can, and we must, do the same for the Iranian people. We must do 
it because it is right, because it will strike a devastating blow 
against the terrorists with whom we are at war, and because it will 
save the lives of fine people, including our own children.

    Senator Santorum. It is interesting, just to pick up where 
Senator Dayton left off and summarize what you are saying, is 
that your sense is that additional sanctions may not be all 
that helpful from the United States. Putting additional 
sanctions on Iran will not be the stick that will be helpful.
    Mr. Berman, you suggested that we need to send better 
messages into Iran as a way to begin to change the regime. As 
you know, I have introduced a piece of legislation that tries 
to provide help to opposition forces, opposition groups. Can 
you give me a sense of what you would do? First off, does that 
make sense to you, and what sort of help can we provide to 
these nascent groups in Iran that are, as Mr. Samore said, are 
pro-American and pro-democracy? What can we do to take this 
rather disorganized group of people, from every report, and 
begin to gel a real opposition movement?
    Mr. Berman. I think better messages should be just the 
beginning. A little over a month ago, I was on the West Coast. 
I had the opportunity to interact very extensively with the 
Iranian-American community there and I learned an interesting 
fact which I didn't know before. There are 22 radio and 
television broadcast outlets that beam into Iran via satellite 
or medium-wave, long-wave radio that operate, if not 24 hours a 
day, for the majority of the day. Now, certainly some of them 
are not good contenders for U.S. support. But I am sure some 
are, and frankly, we are not supporting them.
    The consequences of that were clear a couple of years ago. 
In the summer of 2003, there were protests on a smaller scale 
resembling those that took place in Teheran in 1999 that began 
to take place on university campuses in Teheran and then 
radiated outward to other cities, like Isfahan. As those 
gathered strength, a lot of people in Washington, myself 
included, were watching this very closely. All of a sudden, 
over the course of 3 to 4 days, those protests petered out. It 
was rather hard to determine why until I spoke with a number of 
people who were involved with U.S. public diplomacy.
    The answer was that the Iranian regime could not block 
broadcasts, because they were beaming off of a satellite from 
NITV (National Iranian Television) in Los Angeles. The students 
were using this television outlet to coordinate where the next 
protest would be, where the next activities would be. So the 
Iranian regime asked the regime of Fidel Castro in Cuba to jam 
those satellite broadcasts, and they did so. Over the course of 
2 to 3 days, the Iranian protests lost steam precisely because 
they had no coordinating mechanism.
    And by not responding to this in any way, the United States 
sent a very dangerous message. The message was: There is a 
limit to our support for Iran's urge for democracy. That is the 
wrong message to send.
    Mr. Takeyh. What you see in Iran today is a considerable 
degree of opposition sentiment, but there is no opposition 
movement as such. It doesn't have strong labor union 
traditions, as you saw in Eastern Europe. There is no 
equivalent of Solidarity. There is no charismatic figure, like 
Iran's own 1979 revolution, that could bring all these forces 
together. There is a lot of division and fragmentation within 
the Iranian opposition. They tend to be all over the spectrum.
    I am not quite sure if that could be created abroad by any 
external power, no matter how powerful. Ultimately, it has to 
do with the Iranian people themselves. The Iranian youth has 
been particularly imaginative, but they have been imaginative 
not in terms of challenging the regime, but circumventing it in 
the sense that they have their own private social life, their 
own, essentially, activities that they try to conceal from the 
regime.
    And so long as there is no active Iranian leadership coming 
from the domestic scene, internal in Iran coming to the surface 
and organizing this opposition sentiment around a cohesive 
movement, I am not quite sure there is much the international 
community can do.
    Mr. Samore. I can only give you the views of the tourist. 
It didn't seem to me like this was a sort of pre-revolutionary 
situation, where you are going to have people prepared to risk 
their lives to try to overthrow the government. They are very 
unhappy. Most of them would like to come to the United States 
so they could have personal freedom. But I didn't get the sense 
that this is a situation where we are likely to be able to 
bring about hard regime change.
    Both of the other panelists have talked about the value of 
soft regime change, that is to say through cultural and other 
exchanges, but those kinds of things take a very long time, and 
unfortunately, during that time, we have got to try to slow 
down the nuclear clock.
    Senator Santorum. One other question, and my time is 
running out. Just give me your insights as to what you think 
Iran is doing to provide assistance to some of the terrorist 
elements within Iraq and whether they seem to be functioning 
and what the impact of a democratic Iraq is on their world 
view.
    Mr. Berman. I think this is a central question. There has 
been a lot of discussion lately, certainly in the media, about 
Iran's role in Iraq in sponsoring the insurgency. I would say 
that Iran, in my estimation, has a much more complex role that 
it is playing in Iraq than is usually noted. They are not just 
sponsoring the insurgency, although there is credible evidence 
to suggest that elements of Iran's clerical army, the Pasdaran, 
are providing bomb-making assistance, as well as training and 
tactics assistance to elements of the Iraqi insurgency.
    They are also attempting to shift the terms of the 
political debate in Iraq through their sponsorship of certain 
groups, such as the Supreme Council for the Islamic Republic in 
Iraq, SCIRI, and their subsidiary support for armed militias 
associated with those groups. SCIRI has a militia named the 
Badr organization, which is very active.
    The strategy there is multifaceted, I think the goal, 
though, is very clear. Last year, the commander of Iran's 
clerical army gave a speech in which he said, ``that if 
American strategy encounters difficulties in Iraq, it will 
stop. Otherwise, it will undoubtedly stretch to other 
countries, to neighboring countries.''
    This is the clearest indication that I can find in the open 
source that Iran has declared opposition to democratization as 
a key element of regime strategy, and I think this is something 
that should be of very much concern to all of you here in 
Washington.
    Mr. Takeyh. I would say if you look at Iran's strategy, 
which has changed and evolved over time, increasingly, the core 
Iranian strategic objective in Iraq is empowerment of the Shiia 
community and particularly the organized aspect of the Shiia 
community, which happens to be the Supreme Council of Islamic 
Revolution, also the Davo party, which the current Prime 
Minister of Iraq is a member of, are the most organized ones.
    The empowerment of those particular groups is an important 
objective in Iran, and somehow you see what they are doing in 
Iraq today reminiscent of what they did in Lebanon, namely 
organization of the Shiia community, winning their hearts and 
minds through economic assistance, but also at the same time 
offering assistance to the militia groups that are associated 
with those Shiia political parties, such as the Badr brigade.
    It is important to recognize the Badr brigade is not an 
illegal militia. Iraq's constitution recognizes that political 
parties can have armed militias, as was the case with the 
Kurdish population, as well.
    Increasingly, I begin to think that Iran's strategy in Iraq 
is namely the realization of this strategy is contingent on 
actually the democratic process. The more Shiites are elected 
and the more they are empowered and the more Iraq's promises 
become stronger and the central government becomes weaker. As 
such, the stability and success of Iraqi democracy is 
incongruously in Iran's own interest.
    Also, when Iraq is a stable democratic system, that is the 
time when the American forces will leave. As the President has 
said, we will stand down when they stand up. Well, that is the 
day that Iranians are looking forward to.
    So I am not quite sure if the Iranian strategy at this 
point is to subvert the democratic process.
    Mr. Berman. Could I just interject one point here? I think 
that is a perfectly valid scenario. There is also another 
scenario that I think needs to be taken into account, however. 
If it is credible that Iran is attempting to monopolize the 
democratic process, there can be an equally credible case made 
that Iran is attempting to subvert the democratic process to 
foment some sort of civil strife in which Shiite communities 
will look to the Islamic Republic for protection and allow Iran 
to expand its influence in Iraq that way.
    Mr. Samore. Just to answer very briefly, what the Iranians 
will say to you is that they have benefitted tremendously from 
the U.S. invasion of Iraq. First, the mess in the country and 
the insurgency ties down U.S. forces and therefore provides 
some protection to Iran and also gives the Iranians leverage 
against the United States, because if they want to retaliate if 
we do something they don't like, they can step up their support 
for the insurgency. So they like the mess next door. That helps 
them.
    At the same time, what the Iranians will say is that they 
think that eventually, when a government emerges in Baghdad, it 
is very likely to be dominated by Shiias and therefore very 
likely to be much more friendly to them than Saddam Hussein 
was.
    Some of this may be bravado, but what you hear from 
Iranians is the sense that things are going pretty well for 
them in terms of the Iraqi situation.
    Senator Santorum. Thank you.
    Senator Dayton. Senator Coburn, I would like to thank you 
for what I think is one of the very best hearings I have had my 
entire time in the Senate. It was really excellent. I thank all 
of you.
    I would like to suggest the possibility of a hearing at 
some point to look at what have been the successful strategies 
the United States--and Libya comes to mind--with deterring 
other nations from going through with this procurement or 
development of nuclear weapons. Conversely, what has failed? I 
mean, this seems to me the crux of the problem here.
    Again, I commend you for this. It has really been very 
insightful. Thank you.
    Senator Coburn. Thank you. We will take that under 
advisement with Senator Carper.
    First of all, let me thank each of you for your time and 
your testimony. There are several questions that we will be 
submitting that we would like for you to answer, if you would, 
on a timely basis. I plan on contacting each of you. I want to 
learn more about your thoughts.
    Mr. Takeyh, you have a great insight because not only are 
you an American, you are an Iranian and that gives us an 
insight into feelings, emotions, and connectivity with the 
Islamic Republic of Iran that we might not have otherwise, and 
so I look forward to visiting with each of you on this very 
difficult subject for us. Thank you very much for being here.
    The hearing is adjourned.
    [Whereupon, at 5:38 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 24931.004

[GRAPHIC] [TIFF OMITTED] 24931.005

[GRAPHIC] [TIFF OMITTED] 24931.006

[GRAPHIC] [TIFF OMITTED] 24931.007

[GRAPHIC] [TIFF OMITTED] 24931.008

[GRAPHIC] [TIFF OMITTED] 24931.009

[GRAPHIC] [TIFF OMITTED] 24931.010

[GRAPHIC] [TIFF OMITTED] 24931.011

[GRAPHIC] [TIFF OMITTED] 24931.012

[GRAPHIC] [TIFF OMITTED] 24931.013

[GRAPHIC] [TIFF OMITTED] 24931.014

[GRAPHIC] [TIFF OMITTED] 24931.015

[GRAPHIC] [TIFF OMITTED] 24931.016

[GRAPHIC] [TIFF OMITTED] 24931.017

[GRAPHIC] [TIFF OMITTED] 24931.018

[GRAPHIC] [TIFF OMITTED] 24931.019

[GRAPHIC] [TIFF OMITTED] 24931.020

[GRAPHIC] [TIFF OMITTED] 24931.021

[GRAPHIC] [TIFF OMITTED] 24931.022

[GRAPHIC] [TIFF OMITTED] 24931.023

[GRAPHIC] [TIFF OMITTED] 24931.024

[GRAPHIC] [TIFF OMITTED] 24931.025

[GRAPHIC] [TIFF OMITTED] 24931.026

[GRAPHIC] [TIFF OMITTED] 24931.027

[GRAPHIC] [TIFF OMITTED] 24931.028

[GRAPHIC] [TIFF OMITTED] 24931.029

[GRAPHIC] [TIFF OMITTED] 24931.030

[GRAPHIC] [TIFF OMITTED] 24931.031

[GRAPHIC] [TIFF OMITTED] 24931.032

[GRAPHIC] [TIFF OMITTED] 24931.033

[GRAPHIC] [TIFF OMITTED] 24931.034

[GRAPHIC] [TIFF OMITTED] 24931.035

[GRAPHIC] [TIFF OMITTED] 24931.036

[GRAPHIC] [TIFF OMITTED] 24931.037

[GRAPHIC] [TIFF OMITTED] 24931.038

[GRAPHIC] [TIFF OMITTED] 24931.039

[GRAPHIC] [TIFF OMITTED] 24931.040

[GRAPHIC] [TIFF OMITTED] 24931.041

[GRAPHIC] [TIFF OMITTED] 24931.042

[GRAPHIC] [TIFF OMITTED] 24931.043

[GRAPHIC] [TIFF OMITTED] 24931.044

[GRAPHIC] [TIFF OMITTED] 24931.045

[GRAPHIC] [TIFF OMITTED] 24931.046

[GRAPHIC] [TIFF OMITTED] 24931.047

[GRAPHIC] [TIFF OMITTED] 24931.048

[GRAPHIC] [TIFF OMITTED] 24931.049

[GRAPHIC] [TIFF OMITTED] 24931.050

[GRAPHIC] [TIFF OMITTED] 24931.051

[GRAPHIC] [TIFF OMITTED] 24931.052

[GRAPHIC] [TIFF OMITTED] 24931.053

[GRAPHIC] [TIFF OMITTED] 24931.054

[GRAPHIC] [TIFF OMITTED] 24931.055

[GRAPHIC] [TIFF OMITTED] 24931.056

[GRAPHIC] [TIFF OMITTED] 24931.057

[GRAPHIC] [TIFF OMITTED] 24931.058

[GRAPHIC] [TIFF OMITTED] 24931.059

[GRAPHIC] [TIFF OMITTED] 24931.060

[GRAPHIC] [TIFF OMITTED] 24931.061

[GRAPHIC] [TIFF OMITTED] 24931.062

[GRAPHIC] [TIFF OMITTED] 24931.063

[GRAPHIC] [TIFF OMITTED] 24931.064

[GRAPHIC] [TIFF OMITTED] 24931.065

                                 <all>

</pre></body></html>
